<html>
<title> - HURRICANE KATRINA: WHO'S IN CHARGE OF THE NEW ORLEANS LEVEES?</title>
<body><pre>[Senate Hearing 109-616]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-616

     HURRICANE KATRINA: WHO'S IN CHARGE OF THE NEW ORLEANS LEVEES?

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION




                               __________

                           DECEMBER 15, 2005

                               __________

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs













                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

26-746 PDF              WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001




        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
                   David T. Flanagan, General Counsel
                        David K. Porter, Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                Robert F. Muse, Minority General Counsel
          David M. Berick, Minority Professional Staff Member
                  Trina Driessnack Tyrer, Chief Clerk





















                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Carper...............................................     4
    Senator Voinovich............................................    22
    Senator Coleman..............................................    24
    Senator Levin................................................    37

                               WITNESSES
                      Thursday, December 15, 2005

Richard P. Wagenaar, Colonel, Commander and District Engineer, 
  New Orleans District, U.S. Army Corps of Engineers; accompanied 
  by Alfred C. Naomi, Senior Project Manager, New Orleans 
  District, U.S. Army Corps of Engineers; and Gerard A. Colletti, 
  Operations Manager for Completed Works, New Orleans District, 
  U.S. Army Corps of Engineers...................................     7
James P. Huey, former President of the Board of Commissioners of 
  the Orleans Levee District.....................................    12
Max L. Hearn, Executive Director, Orleans Levee District.........    16
Edmond J. Preau, Jr., Assistant Secretary, Public Works and 
  Intermodal Transportation, Louisiana Department of 
  Transportation and Development.................................    19

                     Alphabetical List of Witnesses

Colletti, Gerard A.:
    Testimony....................................................     7
Hearn, Max L.:
    Testimony....................................................    16
    Prepared statement...........................................    79
Huey, James P.:
    Testimony....................................................    12
    Prepared statement...........................................    69
Naomi, Alfred C.:
    Testimony....................................................     7
Preau, Edmond J., Jr.:
    Testimony....................................................    19
Wagenaar, Richard P.:
    Testimony....................................................     7
    Prepared statement...........................................    63

                                Appendix

``Hurricane Katrina: Who's in Charge of the New Orleans 
  Levees?'', PowerPoint presentation submitted by Senator Collins    49
The American Society of Civil Engineers, prepared statement......    83
Ann K. Mittal, Director, Natural Resources and Environment, U.S. 
  Government Accountability Office, prepared statement...........    89
Exhibit 18.......................................................   114



















 
     HURRICANE KATRINA: WHO'S IN CHARGE OF THE NEW ORLEANS LEVEES?

                              ----------                              


                      THURSDAY, DECEMBER 15, 2005

                                       U.S. Senate,
                           Committee on Homeland Security  
                                   and Governmental Affairs
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Voinovich, Coleman, Levin, and 
Carper.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order.
    Today the Committee continues its investigation into the 
preparation for and response to Hurricane Katrina. The focus of 
our ninth Katrina hearing is on the key government agencies at 
the local, State and Federal levels responsible for operating 
and maintaining the levees that were supposed to protect New 
Orleans.
    While the levees were absolutely critical to the survival 
of the city, our November 2 hearing demonstrated that this last 
line of defense was fatally flawed in design, construction, or 
maintenance. The witnesses testified that these flaws resulted 
in the levees not merely being overtopped, but actually 
crumbling before the onslaught of the storm.
    The people of New Orleans and the surrounding parishes 
depended on the levees to protect them. It now appears their 
faith had little foundation. Even though the hurricane caused 
extensive damage, it was the flooding from the levee breaches 
that actually destroyed the city of New Orleans.
    Our purpose today is to follow up on that hearing by 
examining which agencies were responsible for operating, 
maintaining, and inspecting the levees; for preparing for 
emergencies; and for responding to problems ranging from 
gradual erosion to sudden collapses.
    The Army Corps of Engineers, the Orleans Levee District, 
and the Louisiana Department of Transportation and Development 
are the key players. But they each played their parts in a 
system fragmented by overlapping obligations and inexplicable 
past practices. On the screen at the side of the room,\1\ the 
principal legal obligations of each is set out.
---------------------------------------------------------------------------
    \1\ The PowerPoint presentation appears in the Appendix on pages 
49-62.
---------------------------------------------------------------------------
    Once the levees have been constructed, the Army Corps of 
Engineers is expected to: Turn over completed sections to the 
Orleans Levee District; perform an annual inspection with the 
district; and review the semi-annual reports filed by the 
district.
    The Orleans Levee District is charged by law with: 
Operating and maintaining the levees; conducting a quarterly 
inspection of the levees at least once every 90 days; and 
filing a semi-annual report with the Army Corps.
    The Louisiana Department of Transportation is obligated by 
State law to: Approve the soundness of the engineering practice 
and the feasibility of the plans and specifications submitted 
by the Orleans Levee District; conduct training of the 
district's commissioners; and review the district's emergency 
plans.
    All had responsibility for preparing for and responding to 
emergencies. In addition to the Corps' responsibilities under 
the Flood Control Act, the National Response Plan designates 
the Corps as the primary agency responsible for public works. 
Likewise, the Louisiana Department of Transportation is tasked 
with the public works emergency functions under Louisiana's 
Emergency Operations Plan.
    In addition to owning the levees, the Orleans Levee 
District is given a supporting role for public works by 
Louisiana's Emergency Operations Plan.
    Today the Committee will hear from witnesses from all three 
agencies as we examine how those various responsibilities were 
actually carried out. The laws called for one thing. Today we 
will hear about the reality, about the confusion on issues as 
fundamental as control, the misunderstandings, and what appear 
to be abdications of responsibility.
    To begin, there was confusion about the basic question of 
who is in charge of the levees. Key officials at the Army Corps 
and the Orleans Levee District have demonstrated this confusion 
by telling the Committee staff one thing in transcribed 
interviews, and then changing their positions later.
    But that confusion is difficult to understand. There are at 
least 18 letters from the Army Corps of Engineers turning over 
various sections of the Lake Pontchartrain and Vicinity 
Hurricane Protection Project to the Orleans Levee District. In 
one such letter, dated June 15, 2000, the Army Corps informed 
the Orleans Levee District that the final inspection had been 
completed on a section of the levees and the Orleans Levee 
District was now responsible for the operation and maintenance 
of the completed section. The letter goes on to explain that 
maintenance means keeping all completed works in first-class 
condition.
    Responsibility for emergency management was also unclear. 
For example, when asked about the Louisiana Department of 
Transportation's levee and flood control repair 
responsibilities articulated explicitly in the State's 
Emergency Operations Plan, the Assistant Secretary for the 
Department stated, ``I'm not sure what that means, because we 
don't have any State flood control works. [The] State doesn't 
own any flood control works.''
    The uncertainty about control, combined with overlapping 
responsibility for emergency management, affected the repair 
efforts at one of the breach sites after Hurricane Katrina. In 
a staff interview, the Commander of the New Orleans District of 
the Army Corps of Engineers described the confusion: ``Who is 
in charge? Where's the parish president? Where is the mayor? 
And then the State? Who is in charge?''
    In addition to this confusion about control and emergency 
management, there are also cases in which the letter of the law 
may have been observed, but its spirit was mocked. For example, 
Louisiana State law requires educational training for levee 
board commissioners.
    However, the former President of the Board candidly 
described the training sessions as follows, ``Once in four 
years, you know what that is? That's going up to a workshop for 
the weekend and having a crawfish boil up here and hear a 
couple people talk about some things, and they get a little 
piece of paper, and they honored the law.''
    He also described the annual inspections of the levees 
conducted by the Army Corps, the Louisiana Department of 
Transportation, and the Orleans Levee District as largely 
ceremonial events. . . . ``They . . . normally meet and get 
some beignets and coffee in the morning and get to the buses, 
and the colonel and the brass is all dressed up. You have 
commissioners. They have some news cameras following you 
around. . . . And you have your little beignets, and then . . . 
you have a nice lunch somewhere or whatever. They have this 
stop-off thing or whatever. And that's what the inspections are 
about.''
    Finally, although the title of the Orleans Levee District 
implies that the district's primary function is to operate, 
maintain, and inspect the levees, the Committee found that the 
minutes of the meetings of the District's Board of 
Commissioners showed that the majority of the Board's meetings 
were actually devoted to other activities. For example, the 
district owns commercial property that it leases to various 
restaurants, karate clubs, and beautician schools. It also owns 
two marinas, an airport, and it licenses a floating casino. 
Collectively, based on our review of the minutes, these 
enterprises consumed the majority of the Board's deliberating 
time in recent years.
    The tragedy that unfolded last August to one of America's 
most vibrant cities was rooted in the failure of the levees. 
That failure, in turn, did not happen by chance, but as a 
result of fundamental flaws in design, construction, or 
maintenance. Those flowed from basic problems with governance.
    Superb engineers and competent contractors can solve some 
of these issues, but until we face up honestly to the issue of 
governance, we will have failed the citizens of New Orleans and 
taxpayers across America. Confused, overlapping, and imprecise 
roles, shortcomings in training and qualifications, the focus 
on unrelated business activities, and complacency as to the 
vulnerability of the system were the human flaws that Katrina 
exposed.
    The future of the city of New Orleans is inextricably 
linked to its levee system. The Mayor, business leaders, and 
the Federal Reconstruction Coordinator have all emphasized to 
me that the private sector will not make significant 
investments in the city without assurances that the levees will 
be rebuilt stronger and better.
    But that commitment to strengthening the levees must be 
accompanied by significant reforms. The confusion and chaos 
that characterized the current regulatory regime can no longer 
be tolerated. Not only must we strengthen the levees 
themselves, but also we must strengthen the oversight of the 
entire levee system if we are truly to protect New Orleans from 
another catastrophic failure.
    I am very pleased today to recognize Senator Carper, who is 
going to be acting as the Ranking Member today. Senator 
Lieberman, who has been extremely involved in this 
investigation and has a special interest in the integrity of 
the levee system and its oversight, unfortunately is ill today 
and is unable to join us. He has asked Senator Carper to very 
ably step in to act as the Ranking Member, and I am pleased to 
call upon him for his opening statement.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you, Madam Chairman. I am honored to 
sit at your right hand and to pinch hit for Senator Lieberman.
    That was quite an opening statement, by the way. I do not 
know that I can add a whole lot to it. I will try to 
reemphasize a couple of points that you have made and maybe add 
one or two others as well.
    To our witnesses today, thank you for joining us, and we 
look forward to hearing from you. You will get a chance to 
speak, and thank you for your patience in the interim.
    More than a million people in the New Orleans area--that is 
more than the whole State of Delaware, by the way--counted on 
the levees to protect their lives, to protect their homes, and 
to protect their businesses. We must know why they failed, not 
the people, not the businesses, not the homes--the levees. It 
is the key, as the Chairman has said, to any rebuilding plan 
for New Orleans.
    Preliminary evidence from the teams examining the levees 
suggest at least to us that design flaws contributed 
significantly to the collapse of the levees. Media reports also 
indicate that there may have been failures in the levee 
maintenance and inspection regime. It also appears that there 
was no plan in place to respond to a major breach of these 
levees that are so critical to the life of this city and to the 
lives of its citizens.
    This morning our Committee will hear from representatives 
of the key agencies at each level of government, Federal, 
State, and local, who have the responsibilities over the levee 
system. Each of you will explain how you viewed your 
responsibilities for the design, for the construction, for the 
maintenance of the levees, and who responds if they do fail.
    In brief, the U.S. Army Corps of Engineers is responsible 
for the design and construction of the levees, as we have seen 
and heard. The State Department of Transportation and 
Development provides technical support to the levee district, 
sometimes serving as a local sponsor itself. Local sponsors, 
the levee districts, share the cost of constructing the levees 
and are then responsible for operation and maintenance once the 
levees are completed. Both the State and the Corps also have 
ongoing oversight responsibilities of operation and maintenance 
activities.
    That all sounds simple enough, but a closer examination 
reveals a more confused and disturbing picture. The Army Corps 
says that they finished the levees and floodwalls and turned at 
least most of them over to the Orleans Levee Board. At the same 
time, the Corps admits that the levees continue to settle into 
the earth and has continued to ask Congress and the 
Administration for funding to build those levees back up and to 
maintain them as a Federal responsibility. And also, although 
Army Corps regulations require levee districts to immediately 
repair damaged or below-grade sections, it often takes months 
or even years before repairs are made.
    To make matters worse, there is still confusion about what 
level of protection the levees were capable of providing. The 
Army Corps has stated for years that the system was capable of 
withstanding a ``fast-moving Category 3'' storm, but this 
system of rating the strength of hurricanes, known as the 
Saffir-Simpson Scale, was not invented when these levees and 
floodwalls were designed. And the hypothetical hurricane that 
the Corps used as a basis for the design of the New Orleans 
levees, known as the Standard Project Hurricane, does not 
really fit the current definition of Category 3 hurricane.
    In the case of wind speed, the Standard Project Hurricane 
would be classified, I believe, as a Category 2 storm. In the 
case of central pressure, it would be a Category 4. When 
Committee staff asked for documentation to show how the Army 
Corps of Engineers arrived at the conclusion that the levee 
system would protect against a Category 3 hurricane, our staff 
was told that there really was not any.
    And finally, we know a lot more about hurricanes in the 
Gulf of Mexico, and we are well aware of changes occurring in 
the physical environment that impact the effectiveness of 
levees in New Orleans, such as the settling and sinking of the 
entire region, the loss of coastal wetlands, and the widening 
of the Mississippi River Gulf Outlet.
    And despite this, there was no systematic effort at any 
level of government to determine exactly what effect these 
changes had on the level of protection provided by the levees. 
As a result, there has been no chance in the design of the Lake 
Pontchartrain and Vicinity Project since the project was 
authorized, I believe, in 1965. An effort begun in 1999 to 
examine how to improve the levee protection to guard against a 
Category 4 or Category 5 storm never got past the preliminary 
study phase.
    Finally, the response to the breaches is problematic. 
Although the Army Corps of Engineers and the levee district 
struggled under catastrophic conditions to close off the 
floodwall breaches in the aftermath of Katrina, it is clear 
that no one had a plan in place to deal with this kind of 
disaster.
    So, Madam Chairman, and to my colleagues, I conclude these 
remarks really where I started. Over a million people depended 
on these levees for their protection. Billions of dollars worth 
of property and economic activity lay behind these barriers. 
And yet, despite their enormous importance, the patchwork of 
government agencies simply failed to ensure that the level of 
protection the levees were intended to provide was in fact 
being provided. Federal, State, and local leaders are now 
trying to determine how to rebuild New Orleans and the 
surrounding parishes flooded by Hurricane Katrina. A critical 
element of those plans is going to be what level of hurricane 
protection is needed?
    As we will discuss this morning, it is not just a question 
of building hurricane protection barriers that are high enough 
to stand up to these storms, it is also imperative that we 
reexamine the roles and responsibilities of the government 
agencies at all levels that are responsible for the financing, 
design, building, and maintenance of the levee system, as well 
as for responding to emergencies. As we have seen in Katrina, 
the levee system is only as strong as its weakest link, and 
that a critical part of that system is the government agencies 
that create and maintain it.
    Thanks very much.
    Chairman Collins. Thank you. I want to thank our two other 
members for coming today.
    I am now going to welcome our witnesses to the hearing. We 
have representatives from the Federal, State, and local 
government agencies that have a role in the design, 
construction, operation, maintenance, and inspection of the 
levees in New Orleans and in preparation for and in response to 
emergencies involving those levees.
    Colonel Richard Wagenaar is the District Engineer and 
Commander for the New Orleans District of the Army Corps of 
Engineers. The Colonel is a 26-year veteran of the U.S. Army 
with significant command experience both in the United States 
and abroad.
    Alfred Naomi is the Senior Project Manager for the New 
Orleans District of the Army Corps. Mr. Naomi has over 23 years 
of experience as either a Project Manager or Senior Project 
Manager with the Army Corps.
    Gerard Colletti is the Operations Manager for Completed 
Works for the Army Corps' New Orleans District. Mr. Colletti 
started working for the Army Corps in 1977 as a student while 
attending college. He began work for the Corps full time in 
1982 and has rotated through several departments at the Corps, 
including flood control, hurricane protection and emergency 
management, and inspections of completed works.
    Edmond Preau is the Assistant Secretary for Public Works 
and Intermodal Transportation of the Louisiana Department of 
Transportation and Development. He is a registered professional 
engineer and has worked for the Department or its predecessor 
since 1968.
    Also, Mr. Preau, I understand that you had to defer some 
family obligations in order to be with us today. I want to 
thank you very much for doing so. I understand that created 
some hardship for you and your family, and I very much 
appreciate your rearranging your schedule. I think your 
testimony is very important to us, and our consideration would 
have been incomplete without your participation, but I do very 
much appreciate your being here.
    James Huey served as the President of the Board of 
Commissioners of the Orleans Levee District from June 1996 to 
October of 2005. Prior to becoming the Board's President, Mr. 
Huey served as a Commissioner and Chairman of the Board's 
Engineering Committee. In total, Mr. Huey has served the Board 
for approximately 13 years.
    And finally, Max Hearn is the Executive Director for the 
Orleans Levee District. After serving in the U.S. Air Force for 
30 years, Mr. Hearn started working for the Orleans Levee 
District in 1989 as the Director of Operations and Maintenance. 
He became the Executive Director in 1997 and has served in that 
capacity ever since.
    I would ask that you all rise so that I can swear you in. 
Do you swear that the testimony that you're about to give the 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Colonel Wagenaar. I do.
    Mr. Naomi. I do.
    Mr. Colletti. I do.
    Mr. Preau. I do.
    Mr. Huey. I do.
    Mr. Hearn. I do.
    Chairman Collins. Thank you. It is my understanding that 
Colonel Wagenaar, Mr. Huey, and Mr. Hearn have formal 
statements and that the other witnesses today will be available 
to respond to questions. So, Colonel, we will start with you.

  TESTIMONY OF RICHARD P. WAGENAAR,\1\ COLONEL, COMMANDER AND 
  DISTRICT ENGINEER, NEW ORLEANS DISTRICT, U.S. ARMY CORPS OF 
   ENGINEERS, ACCOMPANIED BY ALFRED C. NAOMI, SENIOR PROJECT 
 MANAGER, NEW ORLEANS DISTRICT, U.S. ARMY CORPS OF ENGINEERS, 
   AND GERARD A. COLLETTI, OPERATIONS MANAGERS FOR COMPLETED 
   WORKS, NEW ORLEANS DISTRICT, U.S. ARMY CORPS OF ENGINEERS

    Colonel Wagenaar. Madam Chairman and distinguished Members 
of the Committee, I am Colonel Richard Wagenaar. I am the 
Commander and District Engineer of the U.S. Army Corps of 
Engineers, New Orleans District, one of 45 operating around the 
world. While the district is small in geographic area, it has 
the most civil works staff of any district in the Corps today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Colonel Wagenaar appears in the 
Appendix on page 63.
---------------------------------------------------------------------------
    The primary missions of the district include operating and 
maintaining navigation on the Mississippi River and other 
navigable waters in South Louisiana, constructing flood and 
storm damage reduction projects, and working with other Federal 
agencies and the State to restore the aquatic ecosystem of 
Coastal Louisiana.
    I am honored to be testifying before your Committee today 
on the roles and responsibilities of the Corps of Engineers 
related to storm damage reduction in the metropolitan New 
Orleans area and our response prior to, during, and following 
Hurricane Katrina.
    My statement covers the following topics: The storm damage 
reduction system for the metropolitan New Orleans area; 
responsibility for operations, maintenance, and inspection of 
the system; and the role of the Corps of Engineers New Orleans 
District in responding to Hurricane Katrina.
    In the metropolitan New Orleans area, the Corps has 
constructed two large storm damage reduction projects, the West 
Bank Louisiana and Vicinity Hurricane Protection Project and 
the Lake Pontchartrain and Vicinity Louisiana Hurricane 
Protection Project.
    The Corps designed the West Bank project to reduce the risk 
of storm damage on the West Bank of the Mississippi River from 
storm surges coming from Lakes Cataouatche and Salvador and 
waterways leading to the Gulf of Mexico. It covers parts of 
Orleans, Jefferson, and Plaquemines Parishes and includes the 
Westwego to Harvey Canal, and the Lake Cataouatche and East of 
Harvey Canal areas. The Corps designed the Lake Pontchartrain 
and Vicinity Hurricane Protection Project to reduce the risk of 
storm damage between Lake Pontchartrain and the Mississippi 
River Levee from storm surges coming from Lake Pontchartrain. 
It covers parts of St. Bernard, Orleans, Jefferson, and St. 
Charles Parishes.
    In accordance with Title 33, Part 208.10 of the Code of 
Federal Regulations, operations and maintenance of these two 
projects is a non-Federal responsibility. For the West Bank and 
Vicinity Project, the Louisiana Department of Transportation 
and Development is the non-Federal sponsor for construction, 
and the West Jefferson Levee District is the non-Federal 
sponsor for operations and maintenance.
    For the Lake Pontchartrain and Vicinity Project, the Lake 
Borgne Basin and Levee District, St. Bernard Parish, the 
Orleans Levee District, the East Jefferson Levee District, and 
the Pontchartrain Levee District are sponsors for the work in 
St. Bernard, Orleans, Jefferson, and St. Charles Parishes 
respectively.
    The levees in the New Orleans area are inspected visually 
on a regular basis by both the Corps and the local levee 
district, together and independently. Specifically, the Corps 
has an annual inspection program, with the New Orleans District 
Engineer and with the appropriate design engineers. The local 
levee districts patrol the system periodically between the 
annual joint inspections. The Corps also completed a joint 
inspection of the Orleans area with both the levee district and 
the State in June 2005.
    The Corps of Engineers responds in three ways to natural 
disasters. In all cases, our priorities are to support efforts 
to save lives and find people, to sustain lives through the 
provision of water and shelter, and to set the conditions for 
recovery, such as cleanup and restoring infrastructure and 
navigation.
    First we respond in support of the Federal Emergency 
Management Agency. We also provide engineering assistance, as 
needed, in support of the Department of Defense military 
forces, who are responding to the disaster. Finally, we act 
under our own civil works mission responsibilities, which in 
the area impacted by Katrina involved principally our storm and 
flood damage reduction and commercial navigation missions.
    For example, we conduct surveys of all of the structures in 
the area, both navigation and flood and storm damage reduction, 
and then begin to make repairs. We are also working under our 
Public Law 84-99 authority with the local parishes to repair 
the levee systems that were damaged during the event. Under 
this authority, we repair structures built by the Corps, as 
well as non-federally built structures that qualify for the 
Corps Rehabilitation and Inspection Program.
    I took command of the New Orleans District on July 12, 
2005. Prior to my arrival, the district had participated in an 
annual hurricane preparedness exercise conducted by our 
regional headquarters, the Mississippi Valley Division. The 
district also hosted a day long hurricane preparedness 
conference on July 25, in which representatives of local, 
State, and Federal emergency offices attended. Also, prior to 
Hurricane Katrina, district emergency teams reviewed their 
crisis information and made preliminary plans for activation, 
including prepositioning equipment and supplies.
    About a week prior to landfall in Louisiana, I began 
monitoring the storm as it moved east of Florida. On August 24, 
we monitored Hurricane Katrina's projections, and I directed 
that a block of hotel rooms be secured in Vicksburg, 
Mississippi. As provided in our crisis plan, I coordinated the 
activation and deployment of the Crisis Management Team. On 
August 26, I advised my commander, Mississippi Valley Division 
Commander Brigadier General Robert Crear, that forecasts did 
not bode well for New Orleans and key decisions would be made 
from my Emergency Operations Center (EOC) the following day.
    After an emergency meeting on August 27, I issued an 
evacuation order for the New Orleans District staff under the 
Department of Defense Alternate Safe Haven Plan, with teams 
deployed to alternate operations sites. I also ordered the main 
district building closed for Monday, August 29. The Crisis 
Management Team established a temporary district headquarters 
in Vicksburg, Mississippi. The District Reconstitution Team 
deployed to Baton Rouge, and other emergency teams deployed to 
various locations with orders to be operational no later than 4 
p.m. on August 28.
    Soon after my arrival into my district EOC on August 28, 
the division conducted a conference call to discuss and assess 
preparations. Immediately following the call, my Chief of 
Emergency Management and I visited the Orleans and Jefferson 
Parish EOCs and had short meetings with emergency officials. At 
8 p.m., I ordered my team to the bunker. Eight district 
employees and I remained at the district to coordinate 
operations in a bunker designed to withstand a Category 5 
hurricane. Our goal was to monitor how the levee system was 
faring, talking by phone with local parish and city officials, 
and to provide immediate post-storm assessment to the chain of 
command.
    The biggest challenge both during the storm and its 
aftermath was communications. The Corps and all of its partners 
have redundancies built in to provide backup. However, each 
time one system failed, it seemed as though everyone moved to 
the next redundancy and then overloaded it. Throughout the 
night we received numerous reports of overtopped, failing, or 
breached levees. After a few hours of sleep, I was woken up 
early August 29, Monday, and was told that water was 
overtopping a levee or that there was a levee failure. Many of 
these reports came from a local radio station. Around that 
time, we also received a call from a district employee who 
reported overtopping of the walls along the Inner Harbor 
Navigation Canal. There was little that could be done to 
investigate at that time since the worst of the storm was upon 
us. By about 11 a.m., the winds had decreased some and the 
weather was beginning to clear. By 2 p.m., we had moved from 
the bunker and reestablished the Emergency Operations Center in 
the main district office building. Around this time is when I 
believe we first received a call regarding the breach at the 
17th Street Canal.
    We departed the main district building at about 3 p.m. It 
was apparent as soon as we left the district that New Orleans 
had suffered catastrophic damage. Due to debris, water, and 
live electrical wires, it took us an hour-and-a-half to get to 
the Causeway and I-10 intersection, about three miles from the 
main district office building. Blocked here, we attempted to 
travel east to get to the canal and were stopped at the I-10/
610 split where the water levels left only treetops exposed. I 
didn't know the city all that well, but I knew rainwater didn't 
cause flooding like this. Based on the water height at that 
location, it was obvious that significant flooding was 
occurring.
    We also attempted to drive to the canal from another route, 
but the high water, debris, and strong winds kept us from 
getting through to inspect damage to the levee. We made our way 
back to the main district office building in the early evening. 
It was around this time that we heard media reports about how 
the city had ``dodged a bullet,'' but it was clear to us that 
conditions were very bad. Soon after this, I submitted a 
situation report to my division commander.
    Due to the extreme conditions outside, we put together a 
security and escape plan. We continued our attempts to 
communicate with district teams and local officials. We had 
difficulty calling out, but people could call us 
intermittently. Sometime that evening, Rudy St. Germaine, 
engineer of the New Orleans Sewerage and Water Board, joined 
us. We managed to request a helicopter, and last we heard it 
was supposed to arrive the next day at 7:30 a.m. We hunkered 
down for the night.
    Immediately the following morning, August 30, I dispatched 
two people to the 17th Street Canal, who commandeered a boat to 
inspect the canal. The helicopter arrived at 9:15 a.m., and Mr. 
St. Germaine and I were able to view the city from above 
shortly afterwards. I saw the breach at the 17th Street Canal, 
and then we flew over toward the east side of the city. The 
bridge spans on Interstate 10 were knocked off their 
foundations or gone completely. Devastation was widespread, but 
it was in the Six Flags area in New Orleans East that I first 
saw hundreds, if not thousands, of people on their roofs 
waiting to be rescued.
    When we flew over the Inner Harbor Navigation Canal we 
found three breaches. It was at this time that we determined 
that water was actually draining out of the Lower 9th Ward area 
and not into the neighborhood area.
    After completing an overflight of the rest of the city, I 
returned to my main district office building at approximately 
2:30 p.m. and attempted to call the CMT in Vicksburg to 
initiate coordination. At that time I also found two district 
construction representatives in my EOC that reported in 
voluntarily. We immediately put together a plan to initiate 
operations on the 17th Street Canal in conjunction with the 
West Jefferson Levee District.
    Throughout the rest of the day and evening, with 
intermittent communications, we worked a plan to repair the 
breach on the canal. The Crisis Management Team in Vicksburg 
immediately began orchestrating the necessary resources and 
materials to stem the flow of water. With verbal authorization, 
Corps contractors responded.
    Normal transportation routes were impassable, complicating 
even small tasks. The security, transportation, communications, 
and living conditions at this point were marginal at best. We 
were working 24 hours a day at this point.
    By August 31, the Corps had begun marshaling resources. 
Contractors, material, and equipment were arriving at the 17th 
Street Canal site. By that afternoon, 10 large sandbags were 
dropped into the breach in our first attempt to close the 
breach. The activities at the site were chaotic, as three to 
four different operations were being executed with multiple 
agencies involved.
    By September 1, contractors had begun delivering sand, 
gravel, and large rock to areas on the 17th Street Canal, where 
an access road was being built to reach the breach. Deliveries 
were also being made to the sandbag staging area in the 
vicinity of the Coast Guard station, where thousands of 2- to 
5-ton sandbags were being prepared.
    The next step at the 17th Street Canal and later the London 
Avenue Canal was to cut off flow from Lake Pontchartrain. 
Contractors drove 150 feet of steel piling across the canal to 
seal it. Meanwhile, Army Chinook and Black Hawk helicopter 
crews began placing 7,000-pound sandbags, an average of 600 
bags each day, into the breaches. One breach took over 2,000 
sandbags before engineers could see the bags under the water 
surface.
    Sandbagging operations ran 24 hours a day for 10 days, with 
riggers averaging one to three hookups every 2 minutes during 
daylight hours. We stockpiled 1,500 bags and even more rock to 
address future repairs. Crane barges were also used to place 
sandbags, stone, and gravel, especially along breaches on the 
Inner Harbor Navigation Canal, where ground access was 
nonexistent. Expedient repairs were made to two breaches there.
    A week to the day after Katrina, the 17th Street Canal 
breach was closed. For the next week, which included a rescue 
of one of our employees, I was involved in the formation of 
Task Force Unwatering under the command of Colonel Duane 
Gapinski and accompanied the President during his visit.
    By September 8, I had turned my attention to the 
reconstitution of the New Orleans District. Many of our 
employees in the New Orleans District lost their homes and 
belongings, the same as their friends and neighbors, but 
returned to the main district office building to work and to 
help ensure that their fellow citizens were able to begin the 
recovery and rebuilding process. I am immensely proud of them 
for their sense of duty and their selfless service.
    This concludes my statement. Again, I appreciate the 
opportunity to testify today. I would be pleased to answer any 
questions you may have.
    Chairman Collins. Thank you. Mr. Huey.

TESTIMONY OF JAMES P. HUEY,\1\ FORMER PRESIDENT OF THE BOARD OF 
          COMMISSIONERS OF THE ORLEANS LEVEE DISTRICT

    Mr. Huey. My name is James P. Huey, and I am the former 
President of the Board of Commissioners of the Orleans Levee 
District, having served as the Board's President from June 1996 
until October 2005.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Huey appears in the Appendix on 
page 69.
---------------------------------------------------------------------------
    I appreciate the opportunity this Committee has afforded me 
to testify here today. I want to take this opportunity to thank 
your staff and the delegation investigating this very important 
segment of the flood control system. They have conducted 
themselves in a very professional and courteous manner and have 
been sensitive and courteous in gathering the information and 
facts that will be crucial to this Committee in identifying any 
weakness and/or problem that may have contributed to the 
disaster that Hurricane Katrina created for the city of New 
Orleans and the surrounding parishes.
    I completely understand the importance of providing the 
information in a truthful and factual manner, so that this 
Committee will have the best information possible. This is the 
only way to assure that our community will be provided with the 
appropriate flood control system to protect their property and 
lives.
    In order for our community to rebuild and recover from this 
catastrophic event, our people must have the confidence that 
the proper solutions will be formulated and that the errors 
identified are corrected. This can only be accomplished if we 
all tell the truth and provide the facts regardless of our 
personal and/or self-interest. It is with this spirit and 
understanding that I testify today.
    I appear before this Committee with a sense of the deepest 
sadness in the wake of the greatest natural catastrophe in 
American history, Hurricane Katrina. Hurricane Katrina 
virtually destroyed the great city of New Orleans, where I was 
raised, grew up, and have made my home since boyhood. This 
hurricane affected me personally. I have been displaced from my 
home and witnessed catastrophic destruction to the city that is 
my home. This hurricane also resulted in my resignation as 
President of the Board in late October under criticism 
primarily for actions taken by me immediately after the storm. 
I am not here to defend those actions or take up this 
Committee's valuable time debating those issues because they do 
not concern the important issue and enormous challenge being 
addressed by this Committee: Understanding how the recent 
catastrophe caused by the flooding of the city of New Orleans 
can be avoided in the future.
    I also do not appear here as an advocate for any particular 
cause or viewpoint; the issues are of such gravity and stretch 
beyond the realm of personal or partisan interest. I hope, 
therefore, that you will receive what I say solely as the 
expression of a concerned citizen with one purpose in mind, to 
assist you in your awesome responsibility of formulating 
policies for the flood protection of one of the greatest cities 
in our country. And it is at this level of the Congress of the 
United States that these issues need to be debated and policy 
decisions made because flood control protection for the city of 
New Orleans and the Lake Pontchartrain vicinity has been the 
product of national legislation since enactment of the Flood 
Control Act of 1965.
    In your letter to me, dated December 7, 2005, you stated 
that the focus of this hearing would be on the roles and 
responsibilities of the Federal, State, and local government 
entities for the design, construction, operation and 
maintenance, and inspection of the levees, and the preparation 
for, and response to, levee emergencies in metropolitan New 
Orleans. You also stated in this letter that I would be asked 
to testify concerning my experiences as President of the 
Orleans Levee Board, particularly with respect to the Orleans 
Levee District's operation and maintenance procedures and 
policies, inspection of the levees, and also the financial 
resources available and used to meet the levee district's 
primary mission of protecting the lives and property of the 
citizens of Orleans Parish by constructing, operating, and 
maintaining the levees within the district's jurisdiction. I 
will do so to my very best to share with you my understanding 
of these matters and my experience as a Commissioner and as 
President of the Orleans Levee Board on how these matters were 
addressed and dealt with by the Orleans Levee Board and 
District.
    The floodwalls and levees that failed during the impact of 
Hurricane Katrina on the city of New Orleans were constructed 
by the U.S. Corps of Engineers as part of the Lake 
Pontchartrain and Vicinity High Level Plan. When I was 
appointed to the levee board as a commissioner in 1992, the 
Board was actively pursuing the commencement of the 
construction of parallel protection for the London Avenue, 
Orleans Avenue, and 17th Street Canals. The role and 
responsibilities of the Orleans Levee District for this project 
was to act as local sponsor and, as such, provide certain 
assurances for this project to the Corps and its consideration 
of the Corps constructing the project. These assurances by the 
Board, as local sponsor, were set forth in a number of 
agreements between the Board and the United States of America, 
by and through the Corps of Engineers, dating back to July 
1966. The responsibilities and obligations of the Board, as the 
authorized local governmental body to enter into these 
agreements under Louisiana law, were set forth in detail in 
these agreements.
    These obligations of the Board as local sponsor, referred 
to as ``assurances'' in these agreements, consisted of the 
following:

          To provide all lands, easements, and right-of-ways, 
        including borrow and spoil disposal areas necessary for 
        construction, operation, and maintenance of the 
        project;
          To accomplish all necessary alterations and 
        relocations to roads, railroads, pipelines, cables, 
        wharves, drainage structures, and other facilities 
        required for the construction of the project;
          To hold and save the United States free from damages 
        due to the construction works;
          To provide 30 percent of the cost for the project 
        through cash contributions in lump sum, or in 
        installments paid at least annually, in proportion to 
        the Federal appropriation for the project, in 
        accordance with the construction schedules as required 
        by the Chief Engineer of the United States Corps of 
        Engineers; or as substitute for any part of the cash 
        contribution, to accomplish, in accordance with 
        approved construction schedules, items of work of 
        equivalent value as determined by the Chief Engineer;
          To provide all interior drainage and pumping plants 
        required for reclamation and development of the 
        protected areas;
          To maintain and operate after completion of a project 
        all features of the project in accordance with 
        regulations prescribed by the Corps;
          To acquire adequate easements or other interest in 
        land to prevent encroachment on existing ponding areas, 
        unless substitute storage capacity or equivalent 
        pumping capacity if provided promptly; and
          To comply with all applicable provisions of the 
        Federal law relating to the project, including the 
        Flood Control Act, Uniform Relocation Assistance and 
        Real Property Acquisition Policies Act of 1970, and the 
        Civil Rights Act of 1964.

    In connection with the local cost share for these projects, 
including the floodwalls for parallel protection on the London 
Avenue and 17th Street Canals, the levee district was 
authorized to identify and select engineering consultant firms 
to participate in the work on the parallel protection plan and 
provide services in accordance with the requirements of the 
Corps. The payments made by the levee district to these 
consultants were an in-kind contribution and credited on the 30 
percent local sponsor contribution. The levee district did 
secure the services of engineering firms for the design phases 
of these projects, and their work was subject to the review and 
approval of the Corps. After the Corps approved the engineering 
work for the project, the Corps then entered into contracts for 
the construction of the project with local contractors.
    These were the responsibilities and duties of the Orleans 
Levee District in connection with the design and construction 
of floodwalls on the outfall canals that failed as a result of 
the impact of Hurricane Katrina. As set forth in the 
assurances, after these projects were completed, the Orleans 
Levee District's personnel maintained and inspected these 
projects consisting of 27.8 miles of inner levees and 
floodwalls in the city of New Orleans. In addition, the 
district maintained and inspected some 73.4 miles of front-line 
levees on Lake Pontchartrain and 27.5 miles of Mississippi 
River levees and floodwalls protecting the citizens of the city 
of New Orleans. In total, the district maintains and inspects a 
total of some 128 miles of levees, including 203 floodgates and 
102 valves. As required under the assurances, the operation and 
maintenance of these levees is in accordance with the 
regulations prescribed by the U.S. Corps of Engineers.
    During my tenure as Commissioner on the Orleans Levee 
Board, I can tell you that we worked closely with the Corps' 
district office in New Orleans and had an open and solid 
working relationship with the Corps. Prior to my election as 
President of the Board, I served as Chairman of the Board's 
Engineering Committee, and as such, I was personally familiar 
with the parallel protection plan authorized and constructed by 
the Corps. This committee met monthly, and a Corps 
representative updated the district on the status of the work 
at each monthly committee meeting. Also, after my election as 
President, the Corps representatives each month attended 
committee meetings of the Board and briefed the Committees on 
the status of projects as well as future projects necessary to 
complete the Lake Pontchartrain and Vicinity Hurricane 
Protection Plan.
    I can also inform you that, to my knowledge, there were no 
complaints by the Corps about the inspection and maintenance of 
the flood protection system by the Orleans Levee District. In 
addition, the recent reports that the system was only inspected 
biannually and only in a cursory manner by levee district and 
Corps representatives are inaccurate and unfounded. As will be 
discussed by the Executive Director of the District, inspection 
of the flood control system was a daily function of the 
operations and maintenance departments of the levee district. 
The Executive Director of the Levee District, Max Hearn, well 
knows the procedures followed since he served as the Director 
of Operations and Maintenance until his promotion to Executive 
Director in 1997.
    The maintenance and inspection of the levee system was also 
conducted under the supervision of the Orleans Levee District 
Engineering Department. The district has a Chief Engineer, an 
Assistant Chief Engineer, and a staff that report to the Board 
each month at Committee and Board meetings. Furthermore, while 
I was President over the past 9 years, I was available on a 
daily basis to discuss any needs or concerns of the levee 
district staff, especially any related to flood control.
    In sum, after serving 13 years on the Orleans Levee Board, 
I can earnestly tell you that it was my understanding that the 
primary responsibility for design and construction of the flood 
protection system of the city of New Orleans rested with the 
U.S. Corps of Engineers. The Orleans Levee District did not 
unilaterally initiate flood control projects, which were 
subject to the direction and control of the U.S. Corps of 
Engineers. I do not say this in any way to cast blame for the 
recent catastrophe on the Corps. I say this because this is how 
things were, and are. This was the reality when I was appointed 
and throughout my tenure on the Board. There are good reasons 
why this was the case. The scope and cost of these projects are 
far beyond the financial capability of local governmental 
agencies. Simply put, flood protection is a national obligation 
beyond the capacity of State and local governments.
    The local government entities have obligations, as 
reflected in the assurances, to be provided for the projects, 
and the Orleans Levee District provided these assurances for 
completion of these projects by the Corps. After completion of 
these projects by the Corps, the Orleans Levee District 
operated, maintained, and inspected these flood protection 
projects in accordance with the regulations of the Corps.
    During the time I served on the Board, the levee district 
also had a legal department that attended to all of the legal 
questions confronted by the district, including the Board's 
obligations under Federal and State laws relating to flood 
control. While a member of the Board, I cannot recall one 
instance when we were advised either by our in-house counsel or 
through outside complaints brought to our attention that the 
Board was not fulfilling its legal obligation regarding any 
aspect of the operation, maintenance, or inspection of the 
flood control system that protected the lives and properties of 
our citizens of the city of New Orleans.
    I appreciate the opportunity to make this statement and 
will do my best to answer your questions. Thank you.
    Chairman Collins. Thank you, Mr. Huey. Mr. Hearn.

TESTIMONY OF MAX L. HEARN,\1\ EXECUTIVE DIRECTOR, ORLEANS LEVEE 
                            DISTRICT

    Mr. Hearn. Senator Collins, Committee Members, thank you 
for inviting me to participate in these hearings.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Hearn appears in the Appendix on 
page 79.
---------------------------------------------------------------------------
    I'm Max Hearn, Executive Director of the Orleans Levee 
District, and I'm a resident of Jefferson Parish, just outside 
the city of New Orleans, and live there with my family. My home 
is within the area protected by the flood control structures, 
and we were impacted, along with our neighbors, by Hurricane 
Katrina and the aftermath. Consequently, both in my capacity as 
the Director of the levee district, as a husband and homeowner, 
I welcome this Senate investigation.
    We citizens of Louisiana and residents of New Orleans share 
your concerns regarding the integrity of the flood control 
structures that protect our city, our homes, and our families. 
We also share your goal to determine what went wrong and to 
take preventative measures to ensure that the loss of life and 
devastation to property never occurs in New Orleans or any 
other community protected by the Lake Pontchartrain and 
Vicinity Hurricane Protection system.
    As stated earlier, I served in the U.S. Air Force from 1959 
until my retirement from active duty in 1989, after attaining 
the rank of colonel. Beginning in 1989, I was employed as the 
Director of Operations and Maintenance for the Orleans Levee 
District. I became the Executive Director of the levee district 
in 1997 and serve in that capacity today. In these capacities, 
I am very familiar with the relationships among the various 
governmental entities involved with the flood control systems 
and the operation and maintenance of these systems.
    As you know, a large portion of New Orleans lies below sea 
level. The city is surrounded by water, wetlands, and marsh, 
and is threatened by the Mississippi River, Lake Pontchartrain, 
and the Gulf of Mexico. Consequently, flood protection is 
essential to this city.
    As I appreciate the Flood Control Act of 1928, the Federal 
Government, through the U.S. Army Corps of Engineers, assumed 
primary responsibility for the national flood control system. 
As such, the Corps determined where the levees and flood 
control structures were needed, established the criteria for 
the design and construction of the levees, then assigned the 
operation and maintenance responsibilities for the levees over 
to local governmental bodies, like the levee district.
    The levee district was created by the Louisiana legislature 
as the State governmental entity charged to coordinate and 
cooperate with the Federal Government with respect to flood 
control structures built under the National Flood Control Act. 
The district's jurisdiction, as Mr. Huey said, includes 73 
miles of front-line levees, 28 miles of inner levees and 
floodwalls, 28 miles of Mississippi River levees, 203 
floodgates, 102 valves, and two flood control structures.
    Following Hurricane Betsy in 1965, which caused extensive 
flooding in New Orleans, the Corps of Engineers worked with the 
levee districts in the region to design and build upgrades to 
the flood control system. The floodwalls for the New Orleans 
outfall canals, which are the focus of this Committee's 
attention, are part of the Corps of Engineers' Lake 
Pontchartrain and Vicinity Hurricane Protection Plan. The 
designs for these flood walls were approved by the Corps and 
construction was commenced in the late 1980s. As sections of 
the project were completed, the floodwalls and levees were 
turned over to the levee district for operation and 
maintenance.
    The levee district's operation and maintenance procedures 
are conducted in accordance with Federal regulations and under 
the oversight of the Corps. In fact, the levee district was 
required to enter into contracts with the Federal Government 
assuring that the operation and maintenance of the levees 
constructed under the Federal Flood Control Act would comply 
with the Federal regulations and the Corps of Engineers 
guidelines. These regulations and guidelines set forth specific 
inspection and operation procedures.
    The levee district maintenance supervisors conduct major 
inspections prior to the beginning of the hurricane flood 
season and during high-water events. Additionally, at regular 
intervals of at least a monthly basis, district work crews and 
supervisors, in conjunction with regularly scheduled 
maintenance, observe the levee system and the flood control 
structures within the district's jurisdiction.
    During any inspection of the levees and floodwalls, the 
district employees check for levee problems including unusual 
subsidence, encroachment by trees, shrubs, or private 
structures, animal burrows, seepage, sand boils, leaks, caving, 
erosion, slides, sloughs, and for floodwall problems including 
accumulation of trash or debris, things growing on the 
floodwall, cracked, unstable, or misaligned floodwalls. Levee 
district employees are trained to report any problems observed 
during their routine maintenance activities to their supervisor 
for corrective action.
    The Corps conducts annual inspections of the flood control 
structures within the Orleans Levee District's jurisdiction and 
grades the levee district on compliance. During my tenure as 
the Executive Director of the Orleans Levee District, the Corps 
has always evaluated the district's compliance level as 
``Outstanding.''
    The district operates the gates, valves, and other flood 
control structures as appropriate for various high water and 
storm events.
    In preparation for the approach of Hurricane Katrina, the 
levee district instituted its emergency operations plan, which 
included the activation of the Emergency Operations Center, 
located at the Lakefront Airport Administration Building, and 
the mustering of the Emergency Maintenance Crews. Additionally, 
the district assured that sufficient food, water, fuel, 
sandbags, trucks, and equipment were on hand for the emergency 
response.
    Prior to Katrina's impact, levee district employees closed 
all of the hurricane flood protection gates and valves, along 
with 13 floodgates on the Mississippi River. As the hurricane 
approached and as water levels began to rise, district 
employees monitored the water levels and patrolled the flood 
control system. As weather conditions deteriorated and became 
unsafe, the district's employees were pulled into sheltered 
areas to ride out the storm.
    During the storm, 60 levee district employees were staged 
at the Franklin Avenue facility, 19 at the Emergency Operations 
Center, and additionally, 43 district police officers were 
stationed at various locations. At the height of the storm one 
of the walls of the administration building blew out and the 
lower floor eventually flooded to a depth of about 4 feet. 
Additionally, one of the buildings used as a staging facility 
for the Emergency Maintenance Crews was damaged during the 
storm.
    On the morning of August 30, conditions had abated such 
that field inspections were possible. District employees 
immediately inspected flood control structures that were 
accessible and coordinated with the Corps of Engineers, the 
Louisiana Department of Transportation and Development, and the 
East and West Jefferson Levee Districts, to respond to the 17th 
Street Canal breach.
    The 17th Street Canal breach was inaccessible to our land-
based equipment due to flooding. Beginning August 30, and using 
sandbags and equipment staged by the Orleans Levee District, 
U.S. Army personnel began airlifting sandbags to close the 
breach. On August 31, the Department of Transportation and 
Development began construction of a road to the breach so that 
land-based repair could be conducted.
    The levee district was requested by the Corps to close the 
London Avenue Canal mouth, and this closure was completed on 
September 2, 2005. The Corps suggested that we build a ramp 
across the Norfolk Southern Railroad tracks to Jordan Road to 
allow heavy equipment access to Lakeshore Drive. This ramp was 
completed on September 5.
    The National Guard commandeered the Franklin facility on 
September 6 to provide additional security and assistance for 
the area, and at that time we relocated to Baton Rouge, 
Louisiana, in accordance with our Business Continuity Plan.
    This concludes my formal statement, and I'll entertain any 
questions you may have for me.
    Chairman Collins. Thank you very much, Mr. Hearn.
    Colonel, when you assessed the scene at the 17th Street 
Canal levee breach, who did you think was in charge of making 
the repairs?
    Colonel Wagenaar. Senator, my original thought was that it 
was the Orleans Levee District.
    Chairman Collins. In your statement this morning you 
describe the situation at that breach as being chaotic. In the 
staff interview you referred to a turf war that you found. 
Could you describe for the Committee the confrontation that you 
encountered at the 17th Street Canal breach?
    Colonel Wagenaar. Yes, Senator. The situation--I mean 
understanding that there was no communications, the canal was 
literally surrounded by water on all sides, our initial 
coordination--because we had no communications with the Orleans 
Levee District, my two construction reps typically work on the 
West Bank of New Orleans. They were in contact with the West 
Jefferson Levee District. That canal typically is the border 
between Orleans Levee District and East Jefferson Levee 
District. West Jefferson Levee District had the assets to 
immediately move into the area sandbags and some equipment to 
move to the site to do some work initially. So we had three 
levee districts involved in a repair operation, and the Corps 
really wasn't initially engaged because it was up to the levee 
district to attempt a repair.
    About 2 days into the repair, the Corps had started 
bringing resources from around the Southeast of the United 
States, contractors, many major contractors moving into the 
area. But--and we wanted to engage all of those resources into 
the repair, however, personalities, the situation, hours 
without sleep, they would not let the Corps of Engineers 
operate in that area to attempt multiple different courses of 
action to try and stop the water from flowing into the city. 
There were personalities out there that prevented the Corps 
from establishing overall control of the site--and this was 
about day two or three after the hurricane--until Secretary 
Bradbury from the State DOTD and the Director of Civil Works 
from the U.S. Army Corps of Engineers arrived and directed all 
State entities to work for the Corps of Engineers. There was no 
direct oversight by the Corps until that time.
    Chairman Collins. When the Corps tried to bring in special 
equipment, did anyone try to block that?
    Colonel Wagenaar. Senator, there was a turf war on the site 
because one project was being done by one entity and the Corps 
tried to bring in all their contractors at one time. We didn't 
care who was working on what. We just wanted the hole filled. 
But there was an individual from the West Jefferson Levee 
District that wanted exclusive use or construction of the road 
behind the levee wall, and when the Corps tried to get involved 
in supporting that effort, he literally blocked our equipment 
from operating on the bridge.
    Chairman Collins. Mr. Preau, who do you think was 
responsible for that repair?

TESTIMONY OF EDMOND J. PREAU, JR., ASSISTANT SECRETARY, PUBLIC 
 WORKS AND INTERMODAL TRANSPORTATION, LOUISIANA DEPARTMENT OF 
                 TRANSPORTATION AND DEVELOPMENT

    Mr. Preau. Originally, the levee districts are supposed to 
be first responders on situations like this. If it is beyond 
their control, beyond their resources, then it would move up to 
the State level to take over. I think it was beyond the State's 
resources at that point. We looked towards the Federal 
Government, who had a lot more resources than we did, and who 
we've relied upon in the past to do major repairs.
    If you read the project agreements, most major repairs are 
to be undertaken by the Corps of Engineers on Federal projects.
    Chairman Collins. Mr. Huey, what is your view on this? Who 
do you see as being in charge?
    Mr. Huey. Well, first of all, I'd like to clarify the fact 
that this is the first I heard of that situation, and I think 
it's an excellent situation. First of all, you have a levee 
district who's from another parish, who's telling a colonel 
from the Corps of Engineers--I've never heard of anything of 
that nature.
    But, first of all, it is unequivocally, I would say, the 
Corps of Engineers. And again, history and time will prove, and 
through every--I always look at it--and previous colonels that 
I have met may look at it in fact that the levee district is a 
client, a partner with the Corps of Engineers in flood 
protection. That's often stated from time to time. We are a 
resource for the Corps of Engineers. I look at it from the 
standpoint, from my level, is that they're the head, they're 
the brains. They have the engineering, the design, the overall 
knowledge of how the flood protection system should be 
constructed, and so forth.
    The levee district provides substantial resources, and as I 
mentioned in my statement, the various assurances and so forth. 
We've provided resources, sandbags, whatever equipment we have 
available to the Corps. In previous storms, George as being a 
tropical storm, we identified the effects of the coastal 
erosion from high levels, and we pump our water. We're one of 
the few places in the entire world, next to the Netherlands, 
that I understand, we have no gravitational drainage, we're in 
a bowl. So those levees are the critical part.
    And our pumping stations are designed to pump the water 
into the river, the lake, or these canals. So the water levels 
rose to the levels of the--where the pumping station basically 
had no place to pump, and we provided and worked with the Corps 
with providing sandbags and things of that nature or whatever. 
But that is my understanding, the Corps of Engineers.
    Chairman Collins. Thank you. I am going to pursue this 
issue in the second round of questions. My time has expired. 
But I think your answers, as well as what happened at that 
site, demonstrates the need for far more clarity in 
establishing who is in charge and when does maintenance, 
routine maintenance become a major repair. Does that change who 
becomes responsible?
    Senator Carper. Thanks, Madam Chairman.
    I have some specific questions, I just want to go back and 
ask our three witnesses who have spoken, just to put in your 
own words, in layman's terms, the respective responsibilities 
of each of the three entities that we have heard from. I am 
going to ask each of you to describe what you believe to be the 
Army Corps' responsibilities, what you believe to be the New 
Orleans District's responsibilities, and so forth.
    And then I am going to ask each of you to say whether you 
agree with the other assessments or not, and just words that 
anybody could listen in and sort of understand this.
    Colonel Wagenaar. Senator Carper, as the District Engineer 
for the New Orleans District, I am responsible for hurricane 
protection, flood control, navigation, ecosystem restoration, 
and water resources development projects in southern Louisiana 
and the metropolitan area of New Orleans. I am responsible for 
that program of the U.S. Army Corps of Engineers.
    The Hurricane Protection Project, as a comprehensive 
project, the Lake Pontchartrain and Vicinity Project, is a 
Corps of Engineer project, comprehensive. It has multiple 
different components. When viewed comprehensively, the Corps of 
Engineers is responsible for the project as a whole. As 
components are completed, such as the 17th Street Canal, the 
operations and maintenance is turned over to the local 
authorities, the local levee districts or levee boards; that is 
why I believe when the canal--as a separate entity--that's why 
I believed at the time that the levee board was responsible for 
the immediate action on that canal, pending any request through 
the process of State, Federal, back down to the Corps for 
support.
    Senator Carper. Talk to us about the responsibility of the 
State. The Department of Transportation and Development, how do 
they figure into this?
    Colonel Wagenaar. I can't give you the specifics. Mr. Preau 
may be able to do that.
    Senator Carper. Just your understanding.
    Colonel Wagenaar. Senator, my view is, is that they 
somewhat have an overarching command and control structure of 
the levee districts in facilitating mutual support, and we look 
to the State to provide guidance to the levee boards. But 
that's about the extent of my knowledge in regards to their 
ability to have oversight over those levee boards and 
districts.
    Senator Carper. Good, thanks.
    Mr. Huey, the same question, if you will, just in your own 
terms, to where you agree with the Colonel's interpretation, 
and just add to or take away from that. Your understanding of 
the relative responsibilities in a situation like this of both 
the Army Corps, the State, and the levee district?
    Mr. Huey. First of all, you said in my own words. I was 
sitting here reading Orleans Levee District responsibilities 
basically prepared for me, what-have-you, but from just the 
day-to-day experience, from the outlook of a commissioner. 
Understanding the fact that our staff works hand-in-glove with 
the Corps day to day. That's one of the primary, our 
engineering staff, our people on a daily basis, we have a 
tremendous relationship.
    On the other hand, they attend--Mr. Naomi, who is here, 
attends virtually every meeting of the Orleans Levee District, 
both committee meetings and board meetings, and that's who us, 
as commissioners, and the people look to as our experts and 
people who are constructing and building the flood protection 
system, and we're working hand-in-glove as their support team 
and assuring that it is maintained and serviced properly.
    I think one of the biggest weaknesses here appears to be in 
an emergency situation, who steps up to the plate. First of 
all, I would like to clarify one of the things, that the 
Orleans Levee District was--the only dry area in the city was 
along Lakeshore Drive. Our folks, Mr. Hearn and about 60 of our 
people, were trapped in this facility for 10 days. During that 
period of time, they were the ones bringing the 5,000 pound 
sandbags from our facility back and forth along this particular 
area.
    As the Colonel said, one of the most frustrating problems 
was communications. We virtually had none. I could only get Max 
on the phone or the radio for a matter of a minute or two, and 
he was trying to tell me what was going on there, and vice 
versa, and I had headed to Baton Rouge for the recovery effort. 
So--but our people did join in. We support them. If in fact the 
situation would have been they were out, which Max will tell 
you, exploring these areas, and a lot of the information we 
were getting was from scattered news media reports, rumors, 
things of that nature also, but again, I disagree from the 
standpoint of the fact that we look to the Corps.
    Now, our people may be responsible for the first ones out 
there, and if we spot a breach or a problem, contact the Corps, 
get them in here because we're not prepared, we don't have the 
helicopters or certain things, or the--really, I would have to 
say the expertise of the type of engineers they have to say, 
``You have this breach coming in here. What do we do?''
    Senator Carper. Thank you. Mr. Hearn, your response to the 
same question, if you would, please. What I am trying to get is 
just a lay person's understanding of the relative 
responsibilities of the three major entities here, Federal, 
State, and local.
    Mr. Hearn. I think the responsibility for a breach like 
this is above the Orleans Levee District, but we would go to 
DOTD and the Corps to get their support because they can do the 
contracting or get whatever is necessary. I think the 
confusion--if there is a way to explain that--is that it was on 
the Orleans Levee District side. We couldn't get to it because 
the depth of the water. East Jeff was trying to help out. West 
Jeff had the riprap.
    And that turf war that occurred, according to the Colonel, 
over on the Hammond Highway Bridge, I think it was just assumed 
that that's the Orleans Levee District's responsibility, and we 
couldn't come anywhere close to it. So, to me, it's a matter of 
if the Orleans Levee District could handle it, then we would. 
We would go to DOTD and the Corps at the same time, and it's a 
partnership between the three of us to handle whatever breach 
we may have.
    Senator Carper. My time has expired, and I look forward to 
a second round. Thank you.
    Chairman Collins. Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Madam Chairman. I thank you 
for these hearings. I think you and Senator Lieberman are doing 
an outstanding job. This is the ninth Katrina hearing, and I 
think that once the investigation is complete you will come 
back with a comprehensive report that delineates the problems 
and proposes good solutions.
    It is obvious to me from the testimony here and from 
reading some of the interviews that there is a real lack of 
understanding about who is responsible for what. It is clear 
that opinions about who should have assumed responsibility vary 
widely. Madam Chairman, as a former mayor and governor, I think 
that if I were sitting at today's witness table, I would have 
thought that the Chairman had taken me out to the shed for a 
good tongue-lashing. And if you listened carefully to what was 
said, Madam Chairman, today's witnesses did not do the job they 
were supposed to be doing. I am concerned about that, and I am 
sure that you are too. I think that some of you were not as 
candid in your testimony here as you were when you were with 
the staff. It appears that there are some differences in terms 
of information from the testimony and information the staff 
picked up from their interviews.
    The point I am making is that we have not done the job, 
Madam Chairman, that we should have been doing over the years 
in terms of funding the Army Corps of Engineers and dealing 
with some of the problems that we have in this country. We have 
been penny wise and pound foolish in terms of our human capital 
and our physical capital needs of this agency and, quite 
frankly, a bunch of other agencies.
    The thing that really frustrates me is, is that this Lake 
Pontchartrain and Vicinity Hurricane Protection Project was 
first authorized in 1965. This is the 41st year. As of early 
2005, the project was not expected to be completed until 2015, 
nearly 50 years after it was authorized. Prior to Katrina, the 
project was estimated to be from 60 to 90 percent complete in 
different areas. It said Federal allocations reached $458 
million, 87 percent of the Federal responsibility on the 
project. It was supposed to be $738 million.
    The Corps Project Fact Sheet stated that the project's 
fiscal year 2005 appropriation and the President's budget 
request for 2005 and 2006 were insufficient to fund new 
construction contracts. The Corps had the capability to use $20 
million. The Corps noted that several levees had settled and 
needed to be raised to provide the designed level of 
protection.
    Madam Chairman, we can criticize these folks, but we do 
bear some of the responsibility, and it is about time that we 
faced up, this Administration, and I am talking about this one 
and the ones before them, and this Congress and Congresses 
before, that we face up to our responsibilities in terms of 
dealing with the infrastructure problems that are confronting 
this country.
    I would like to know, Colonel, why have you not been more 
candid with this Committee in terms of what you need? Have you 
given this information to the person that runs the Army Corps 
of Engineers, and have they made this information available to 
the Office of Management and Budget? Have you come before this 
Committee? I dealt with the Corps back when I was Chairman of 
the Transportation and Infrastructure Subcommittee as a 
freshman here. I had it for 2 years. I kept asking the 
question, ``Do you need more money?'' It seemed like everybody 
shut up. I am asking you, what have you done to try and make 
sure that we or the Office of Management and Budget know the 
fact that you did not have the money to get the job done?
    Colonel Wagenaar. Senator, I believe that the process we 
use at my level--to notify my headquarters to request monies 
for those projects and explain to them our capabilities on 
construction for all of my projects, that information would 
make it to this Committee or to the Congress of the United 
States.
    But there's also an understanding at my level that there 
are national priorities and the Congress does its best to 
distribute those appropriations as possible. I mean every 
district in the Corps of Engineers, I believe, would like 
increased funding for its projects, but we also have a common-
sense approach to understanding that the Congress is 
distributing those appropriations based on its priorities, and 
that's how we look at it and----
    Senator Voinovich. Let me interrupt you because I am almost 
running out of time. The fact of the matter is, we cannot do 
that unless we have the information that is necessary to make 
good decisions.
    I want to ask you one other thing. Did you ever tell the 
Department of Transportation and Development or the Orleans 
Levee Commission that the maintenance on this was not what it 
should be?
    Colonel Wagenaar. Sir, I cannot answer that. One of my 
experts may be able to answer that, sir.
    Senator Voinovich. Mr. Colletti.
    Mr. Colletti. Yes, sir. We've dealt with the levee district 
for many years, and their operation and maintenance has been 
outstanding. So, from the aspect of cutting the grass, making 
sure that the levees are in the condition for what they were 
designed from a visual standpoint, and all the inspections that 
are done throughout the year, we have felt that they've done an 
outstanding job.
    Senator Voinovich. So you did not see any problems there?
    Mr. Colletti. No, sir.
    Senator Voinovich. OK. Thank you, Madam Chairman.
    Chairman Collins. Thank you. Senator Coleman.

              OPENING STATEMENT OF SENATOR COLEMAN

    Senator Coleman. Thank you. I also want to thank you for 
your leadership on this issue and at these hearings. It is 
critically important, and you and the Ranking Member have done 
an outstanding job.
    I have three areas that I want to delve into. One is the 
construction design, the other is maintenance, and third is 
reaction. And I am like you, Madam Chairman. I also want to say 
there is a need for clarity, whatever comes out of these 
hearings, and I hope we get that. My mom did not raise dumb 
kids, and I am a little confused as to who has ultimate 
responsibility here--actually, not responsibility, but when 
responsibility needs to be transferred. Mr. Huey would say that 
the Corps has the responsibility. The Corps would say--and I 
think the State would agree--that the folks at the local level 
have the first response, and then it is shifted through. Who 
makes that decision? When is it made? And is it clear who makes 
it? Because in times of crisis, if that is not clear, you have 
got big problems. And I think we had problems here.
    I also want to say in regard to the money, I represent a 
State that borders the Mississippi River. We do a lot of work 
with the Corps. We have a lot of needs. And, Colonel, I 
appreciate your candor in terms of priorities. I think that is 
the reality that we deal with here. It is simply not a matter 
of money. There are a lot of us who would say that a lot of 
things need to be done. The question is how the money is used, 
and then when it is used, is it used in a way in which it is 
going to maximize what is needed?
    Let me ask you a question about design because there have 
been some questions about floodgates--floodgates at mouths of 
canals. Jefferson Parish has floodgates, and those gates did 
not fail. My folks have raised this question about floodgates, 
and at least some of the feedback I got was that the Orleans 
Sewerage and Water Board opposed floodgates here at the 
entrance to the Orleans and London Avenue Canals. I am not sure 
who is to respond. Would it be perhaps Mr. Huey? Can someone 
provide some insight into the opposition to floodgates and 
whether floodgates would have made a difference here?
    Mr. Naomi. Yes, sir. The way the project was designed, or 
at least after the reevaluation in 1984, the Corps started 
addressing the outfall canals. The outfall canals are the 
canals that lead far into the city, 2 or 3 miles into the city 
where the pump stations are, and those canals connect directly 
to Lake Pontchartrain. The Corps' preferred plan was to put 
structures at the mouths of those canals where it entered Lake 
Pontchartrain to keep the storm surge from entering those 
canals.
    The construction of those gated structures was opposed by 
local officials, including the Sewerage and Water Board, the 
city officials, and such, because they felt that if those gates 
were constructed, they would not be able to operate the pumping 
stations during a hurricane event. And so those concerns were 
great in their minds, and so they succeeded in obtaining 
legislation to require the Corps to put parallel protection or 
put floodwalls along those canals in lieu of the floodgates.
    Senator Coleman. And in retrospect, the decision to go 
parallel protections versus floodgates, would you conclude that 
floodgates would have been a better course of action?
    Mr. Naomi. Well, I think that they both would have been 
designed to the same level of protection, of course, for the 
Standard Project Hurricane. But it is problematic as to what 
would have happened had we had floodgates versus those 
floodwalls. Certainly the floodgates could have had a problem, 
too, so it is hard to say definitively what would have 
happened. But it certainly would have--there wouldn't have been 
any floodwalls along those canals to fail had we put the 
floodgates in.
    Senator Coleman. Let me ask you about the issue of 
maintenance. At an earlier hearing, I believe we were told by a 
number of experts that the issue with the failure of the levee 
system was not necessarily the overflow, but it was an erosion 
underneath. I am trying to understand maintenance. Somebody has 
got to be looking at things and seeing erosion. My question is: 
Are there no visible signs of that erosion before this 
catastrophe? If there should have been some way to see that 
beforehand, who had the responsibility to identify that and 
deal with it?
    Mr. Colletti. Well, from our standpoint, our inspections 
are visual. They are not subsurface types of inspections. 
Subsurface investigations are all done at the initial design 
and construction phases. So, the levee district or the Corps is 
not doing any type of subsurface investigations at any of the 
levees or floodwalls at this point.
    Senator Coleman. I want to make it clear. Am I hearing that 
we do not have the capacity to determine whether the kind of 
structural damage that was occurring over a period of time 
could have been identified and then prevented? Colonel.
    Colonel Wagenaar. Senator, I believe that--I mean, from a 
visual--we typically do visual inspections. I don't know of any 
physical inspections that the levee district or the Corps does 
post-construction. So they look for visible signs of potential 
problems. At that point, based on the problem, is when actions 
are taken on all of the different types of flood control 
structures in the city.
    Senator Coleman. But we heard a lot of testimony that, 
again, erosion occurred. I want to make it clear. Do we not 
have the capacity to figure out that there is a systemic 
structural problem until a catastrophe occurs?
    Colonel Wagenaar. Senator, I do not believe at this point 
that the failure or what caused the failure has been 
determined. There is a significant amount of information being 
gathered, to include removing the sheet pile, which we just did 
in the last 2 days, and we determined that the sheet pile was 
to the design specifications of the Corps of Engineers and it 
was not shorter than some people had hypothesized.
    But I believe that we are gathering all of that information 
for each of those breaches because each one could have had a 
different cause of failure. I will tell you there were over 50 
breaches in the metropolitan area. Two-thirds of the flooded 
area would still have occurred regardless of whether these 
walls would have failed. The New Orleans East area and the St. 
Bernard area, those levees were severely compromised by the 
magnitude of Katrina. Their flooding had nothing to do with the 
floodwalls on the 17th Street Canal.
    Senator Coleman. Thank you, Madam Chairman.
    Chairman Collins. Thank you, Senator.
    I am going to follow up on the issue that Senator Coleman 
just raised. Mr. Hearn, the Committee received a letter from a 
retired professor of ocean engineering at MIT, Ernst Frankel. 
It is at Tab 18 in the exhibit book.\1\ He has considerable 
expertise in coastal structures, and he wrote to us that it is 
insufficient to rely solely on visual inspections of levees 
because voids or pockets of water or air may develop within the 
body of the levee. He recommends that acoustic and mechanical 
inspection techniques are normally employed in order to 
determine whether there are any voids or other weaknesses 
within the levee.
---------------------------------------------------------------------------
    \1\ Exhibit 18 appears in the Appendix on page 114.
---------------------------------------------------------------------------
    Did your personnel employ mechanical inspection techniques 
that involved, for example, drilling holes to obtain soil 
samples from within the levee?
    Mr. Hearn. No, Senator, we did not. The task that we have, 
as I gave in my opening statement, is basically looking for 
sand boils, which would indicate some water getting underneath 
the sheet piling or coming up on the other side.
    The other thing we do is what we call a levee profile, with 
our survey department of each of the levees to find out exactly 
how much subsidence they have in a period of time. We did the 
17th Street Canal--we do them all, and it takes us about 3 
years to do all of the levees because of the length. We did the 
17th Street Canal last year, and the profile was less than half 
an inch deviation from what it was from the year before, which 
did not indicate any subsidence at all or any problems at all 
with that particular levee. But we do not have the seismic 
gear. Maybe that is coming in the future of a way to test it, 
but we have not done that in the past.
    Chairman Collins. Professor Frankel also wrote that it is 
critical to inspect the integrity of the surface layer on the 
water side of the levees, particularly that part which is 
underwater, which is the point that Senator Coleman just 
raised. Did any of your personnel inspect areas of the levee 
walls that are underwater, either visually or using acoustic 
equipment?
    Mr. Hearn. No, we did not.
    Chairman Collins. Mr. Colletti, as the Army Corps' 
operations manager, are you aware of any structural or 
geotechnical review of the levees done during the years before 
Hurricane Katrina and specifically of the levees along the 17th 
Street and London Avenue Canals?
    Mr. Colletti. As far as I know, the structural analysis 
that was done along those particular canals was done during the 
design and construction phases. You just asked about scour 
surveys or investigations. We do those near the structures, but 
not against floodwalls.
    Chairman Collins. You stated to the Committee staff that a 
structural re-evaluation is not part of the inspection program. 
Is that correct?
    Mr. Colletti. That is standard unless we know of a known 
problem or it has been brought to our attention or there is a 
suspicion of some type of problem. Then we will go and actually 
do some type of additional evaluation.
    I want to make it clear. The reason we do that is we are 
responsible for over 1,300 miles of levees and floodwalls. So 
to just go out and actually do random inspections, it may not 
turn up anything. We may miss the spot where there actually was 
a failure about to occur.
    Chairman Collins. Mr. Huey, is it accurate that the first 
time that you became aware of the Federal regulation requiring 
inspections of the levees at least once every 90 days was when 
our Committee staff read that regulation to you?
    Mr. Huey. Yes, ma'am.
    Chairman Collins. Colonel Wagenaar, the Army Corps 
regulation requires you as the district engineer to keep 
informed of the levee district's compliance with the operation 
and maintenance regulations through ``careful analysis of the 
semiannual reports submitted by the levee district.'' Did the 
Orleans District submit to the Corps or submit to you 
semiannual reports?
    Colonel Wagenaar. Ma'am, I cannot answer that. Mr. Colletti 
may be able to answer that.
    Chairman Collins. Mr. Colletti.
    Mr. Colletti. We do receive operation and maintenance 
reports, semiannual reports on the structures, and on certain 
features of the projects. In the past we did not enforce the 
semiannual requirement on certain types of projects, 
particularly those that meet and have routine project 
maintenance along them, on river levees and hurricane 
protection Federal project levees. They are routinely 
maintained, so the levee districts are out there overseeing 
that work.
    Also, we meet semiannually with the Levee Board Association 
and its members, of which the Orleans Levee District and most 
of the other levee districts, as well as DOTD, are all 
involved. We meet with them in May of each year at a workshop, 
and we meet again in December.
    In addition to that, we have a very proactive flood control 
permits program where we evaluate, not just with this levee 
district but with other levee districts, anywhere from 300 to 
500 permits throughout the year.
    So there is involvement out there that is in addition to 
just basic routine visual inspections, not only by the levee 
district, DOTD, the Corps, landowners, facility owners, 
stakeholders that have some business in those levees that are 
next to them.
    Chairman Collins. Mr. Hearn, in our review of the 
district's financial statements, we found that the district's 
Special Levee Improvement Fund had a balance of approximately 
$13 million at the end of June 2005, the end of your fiscal 
year, that was ``available for spending for major maintenance 
and capital improvements of the levee system.''
    Was any consideration given to spending that money on more 
sophisticated levee inspection equipment so that you could do 
more than just a visual inspection and instead have the 
acoustical and mechanical equipment that is recommended by the 
MIT professor?
    Mr. Hearn. No, ma'am. Until this breach, there was no 
indication, and I had complete faith in this levee system. You 
can believe that or I would not be in the position I am in 
today. Before this breach, I had heard no mention of seismic or 
anything else. And as we are going to find out as this 
investigation is completed, the seismic indication on the 17th 
Street Canal said the piling was at a certain depth. We pulled 
them, and they are actually at a different depth. So I don't 
think we have refined it to the point and did not have the 
knowledge of the fact that this system could fail and it needed 
inspection from the water side or from seismic. I think that 
will be considered in the future.
    But, yes, we do have the $13 million to do projects with, 
and, for example, on the Marabou Canal Bridge, we gave $1 
million to the Corps because they did not have enough funding 
to finish the bridge. So I am sure that as this develops, 
whatever our requirements are for the inspections, then we can 
use that money to buy the equipment that we need.
    Chairman Collins. Mr. Huey, I was really surprised to learn 
that the levee district has commercial enterprises. I would 
have thought that the levee district would be concentrating 
solely on the operation and maintenance of the levees pursuant 
to its agreement with the Army Corps. And, in fact, when we 
reviewed the minutes of the board's meetings, we found that a 
majority of the meeting time was actually spent discussing 
these commercial enterprises, whether it was the licensing of 
the casino or the operations of the airport or the marinas or 
the commercial leases with the karate business and the beauty 
shop and the restaurants.
    Do you think it is appropriate for the board to be involved 
in these commercial activities? Do those business activities 
detract time and attention from what is truly the mission of 
the board, which is to ensure the safety, the maintenance, and 
the operation of the levees?
    Mr. Huey. Yes and no. First of all, the ``no'' part is the 
fact that, no, I don't think it detracts the levee district, 
and there are numerous instances in which it has been a 
tremendous help.
    The levee district, I was the first president in the 
history of the levee district--and it was formed in 1890, so 
over a hundred years. In 1996, when I became president, the 
levee district had a $6 million deficit, the first time in 
history. So taking the district over, looking at the city, very 
poor city--we are struggling--our chances of getting any tax 
increase or things of that nature was nil to none. As a matter 
of fact, our legislature in their wisdom said, well, go out--
because they took half the millage away from the Orleans Levee 
District and gave it to the Sewerage and Water Board and School 
Board down the line, so the Orleans Levee District receives 
half the millage of the other levee districts in the State 
because we do have commercial properties.
    I have spent a substantial amount of my time educating our 
legislators in the State of Louisiana about the entity that 
they created under the Constitution, the Orleans Levee 
District. With that, the Orleans Levee District under the 
Constitution was so substantially different than any other 
levee district in the State of Louisiana, it is a very 
confusing factor that has complicated a lot of issues in this 
matter, and I was asked whether things should be changed or 
this, that, and the other, or what have you, by the 
investigating committee. And my answer to that is a yes and a 
no--yes because it is confusing, we have got to clarify it to 
the public because they have got the same questions you have 
asked on their mind. How can we focus on flood protection when 
we are running all of these other entities and so forth from 
that aspect of it?
    But Mr. Hearn and his staff, when I came on board, we 
started running things in more of a businesslike manner, 
reducing overhead costs. I think the flood-proof bridges that 
were being built alleviated a big burden off of folks because 
we used to have to sandbag these, and these were evacuation 
routes and things of that nature.
    But to get to the bottom line, we utilize a lot of the same 
resources we have and the folks that operate the equipment and 
tractors and so forth to close floodgates and things of that 
nature or what have you. Our commercial properties were 50-
percent self-funded, and our bond rating from a $6 million 
deficit to a $21 million surplus, which has been identified in 
the financial statement, was developed with prudent management 
and with the understanding in the board--that is why a lot of 
our focus was maximizing our abilities for the assets under our 
control to generate revenue because we knew it was essential to 
continue to provide the level of services that our community 
has come to expect and deserves from the Orleans Levee 
District.
    Does that need to be changed? I think they are taking a 
look at it in the State at this particular point in time. My 
only fear and concern here is that decisions will be made 
without the appropriate facts and people jumping the gun.
    The previous question, I would like to address that because 
all of a sudden some professor who is supposed to really be 
good at what he does says that the Corps of Engineers only had 
the sheet piles driven down 9, 10 feet and that is what caused 
this thing, and it caused commotion in the news media and 
lawsuits popping out all over the darn place because people 
think this. When they did their core sample--and they took it 
the other day--it was built to specifications. I think these 
folks need to have the opportunity and the time to find out 
what really happened there.
    The second point, could things have been identified without 
this situation? It was brought to my attention by your 
delegation of the Sewerage and Water Board being called by a 
lady who was on Bel Air who found--and was told that it wasn't 
their water, it was water from the lake. Well, doggone it, if 
the Orleans Levee Board would have known that it was water from 
the lake in this lady's backyard on the 17th Street Canal, we 
would have certainly--we may not have known where it was at, 
but we would have known there was a problem. Those are the type 
of issues that we need to find out. How was that missed? You 
know, who didn't call us or somebody, you know?
    Those are things I would like to see focused on, but, yes, 
we do have a lot of additional responsibilities, and the board 
has focused on that, but I think these folks have been working 
in conjunction with the Corps. Our flood protection system, as 
Mr. Hearn said, we have complete confidence in unless we hear 
otherwise from the experts that we look to in the Corps of 
Engineers.
    So I think there are going to be some changes made, but I 
think that the type of research and investigation that is being 
done by this Committee to get down to the true facts so that 
your decisions can be based on reality and that the proper 
things would be done is the best way to approach it, not 
jumping the gun.
    Chairman Collins. Thank you. Senator Carper.
    Senator Carper. Thank you, Madam Chairman.
    A quick question of Mr. Huey, just a real brief answer, if 
you would. How are the commissioners chosen?
    How is the president chosen to serve on these levee 
districts?
    Mr. Huey. The commissioners are made up--there are eight 
appointees to the board: Two are appointed by the city of New 
Orleans. That is normally or has been the tradition, basically, 
that the mayor appoints the chief administrative officer and 
also a council person from that particular district that covers 
the majority of the lakefront levee district or council person. 
The governor selects six. Out of those eight members, they 
elect a president and the officers of the board.
    Senator Carper. And are there specific requirements that 
are spelled out in legislation or statute that say what kind of 
background the members need to have?
    Mr. Huey. No, I do not believe there is.
    Senator Carper. And folks serve a specific number of years? 
Is there a term to their tenure and then they have to be 
reappointed? Or are they term-limited?
    Mr. Huey. No, no terms limits. We serve at the pleasure of 
the governor.
    Senator Carper. Fair enough. OK.
    I want to go back to a point that Senator Voinovich made a 
little bit earlier, and we were talking about--in fact, you 
asked a question. I don't know that our witnesses had an 
opportunity to answer it. I think what you were saying is if 
they are sort of in our shoes, how would they ask questions 
about whether the Administration and the Congress has met its 
responsibilities.
    In my State--and my guess is it is probably true in Ohio 
and in Maine as well--we meet regularly with the Army Corps of 
Engineers. Our delegation sort of meets collectively. It is 
easy in a little State like Delaware where you only have three 
people on your delegation. But we meet regularly with the Army 
Corps. We talk about priorities, theirs and ours, and we 
develop almost a game plan to come to the Administration and to 
the Congress and lobbying the relevant committees, 
Appropriations and otherwise, to make sure that the priorities 
that we have identified--that we get them funded, and if we 
don't get them funded the first year, we go back the second 
year or the third year or the fourth year.
    For anyone who ever visits our beaches in Delaware, you 
find that we try to protect our beaches, our dunes, and the 
areas behind them, and we work very closely with the Army Corps 
in developing those priorities and those projects and trying to 
get them funded.
    So when we think of the responsibilities here, there is 
obviously the responsibility that the Federal, State, and local 
agencies have. We have responsibilities, too, but also I would 
add that the delegation, the Federal delegations, House and 
Senate within a respective State, have an opportunity and I 
think a responsibility to identify what their needs are and 
then just to lobby like heck to get them addressed over time. 
It has been about--what did you say, 41 years? That is a long 
lobbying effort, at least in my experience.
    I want to go back to Mr. Naomi, and I don't want you to 
leave here and feel like you haven't had a chance to answer a 
bunch of questions, so I will ask you a couple, if I could. The 
Army Corps of Engineers has publicly said that the hurricane 
protection system was designed to protect against a fast-moving 
or a moderate Category 3 hurricane. The Saffir-Simpson rating 
scale, as far as I know, did not exist when these projects were 
designed, and they were, in fact, designed to a completely 
different standard. I think it is one called the Standard 
Project Hurricane. And here is my question: Mr. Naomi, how did 
the Corps establish that the projects were designed to protect 
against a fast-moving Category 3 or a moderate Category 3? That 
is the first question. And the second question is: What, in 
fact, was the level of protection this system provided during 
Hurricane Katrina?
    Mr. Naomi. Well, you are correct, the authorization by 
Congress provides for the Standard Project Hurricane, and that 
authorization and that level of protection was established long 
before Saffir-Simpson. The problem that we encountered is that 
when folks, the general public, want to know what level of 
protection we have, what kind of category we are protected 
against, it is very difficult to say based on this hybrid type 
storm. And when you try and explain this to the general public 
or you have a wind speed of a high strength Category 2 and a 
central pressure of a Category 4 and the surge characteristics 
of a Category 3, it is very hard to explain why that is.
    Well, there are some very good scientific reasons why that 
is, and it certainly made sense to the meteorologists and to 
the folks at the Weather Service who gave us that design. But 
it does not really make much sense to the media or the general 
public.
    So when we set out the criteria of what the SPH, the 
Standard Project Hurricane, were and applied them to the 
Saffir-Simpson Scale, you try and draw some general conclusions 
so that it will help people understand the type of protection 
they have. And so when we look at the 11.5-foot storm surge in 
Lake Pontchartrain which the Standard Project Hurricane was 
designed to protect against, that came in in the area of a 
Category 3 storm, a fast-moving, relatively low strength 
Category 3 storm.
    And so that is what we generally would say, just to help 
the public understand the type of protection that they have. So 
an 11.5-foot storm surge in the lake is what we have designed 
to protect against. Generally, the lakefront levees are around 
17 feet, which accounts for a certain amount of wave action and 
wave run-up. And so when we explain to the public what level of 
protection they have, we generally will say a fast-moving 
Category 3 storm so that people can understand better what that 
relationship is. They seem to understand the Saffir-Simpson 
Scale. They have a harder time understanding the Standard 
Project Hurricane.
    Senator Carper. All right. Thanks.
    Mr. Preau, I would welcome your comments in response to 
what Mr. Naomi has said on this point. Anything, Mr. Preau?
    Mr. Preau. The Saffir-Simpson Scale is kind of misleading 
when you are talking about hurricane protection projects. We 
are building projects to protect against wave action, not wind. 
Hurricane Katrina was listed as a Category 5 when it was out in 
the Gulf. There have been people now saying it is a Category 4. 
Wind speed dropped when it hit land, so now it is a Category 4. 
That storm was the biggest storm ever to enter the Gulf of 
Mexico. Hurricane Camille on the Mississippi coast pushed up 
about 20 to 25 foot of surge. Hurricane Katrina put over 30 
foot of surge up there. Camille was listed as a Category 5 and 
went down in the history books as a Category 5. I think it 
would be a real disservice to everybody if Katrina goes down in 
the history books as a Category 4 because the wind speed 
dropped at the last minute.
    Winds can drop immediately. Water has, as it has been 
explained by some, a memory to it. When you have a surge up, it 
does not drop as quickly as the wind does. So you have that 
storm surge stays up well after the wind dies. I think if we 
are telling people what type of protection we are providing, it 
ought to all be based on we are providing protection against a 
storm surge of so many feet.
    Senator Carper. All right. Thank you, sir.
    My next question would be for the Army Corps, and I don't 
care if--maybe several of you may want to take a shot at this, 
Colonel and Mr. Naomi and Mr. Colletti. There have been a 
number of changes in our understanding of hurricanes in the 
Gulf since the Lake Pontchartrain Project was authorized some 
40 years ago, and there has been regional subsidence in the 
entire southern Louisiana area, a significant loss of coastal 
wetlands, and the Mississippi River Gulf outlet, which I 
understand acted as sort of a channel for Katrina's surge, has 
been widened. There has also been subsidence of individual 
levee segments.
    A couple of questions. First, how have these changes 
affected the protection needed for New Orleans? And, second, 
how has this been factored into the design of the levee system 
since it was originally conceived some 40 years ago?
    Mr. Naomi. Sir, the levee was designed back in 1965 when it 
was authorized, and that is a long time ago. I was in high 
school at the time.
    Senator Carper. So was I. [Laughter.]
    No, that is not true. I was in college at Ohio State.
    Mr. Naomi. The system was re-evaluated in 1984, and the 
high-level plan was instituted back in 1984. So the design back 
in 1965 really was changed in 1984 to go to what is called the 
high-level plan. So the plan that we are constructing right now 
is really from 1984. And those levees are designed based on 
certain criteria, and certainly the issues of subsidence and 
coastal land loss are important and changes have occurred.
    It was our intention and in what we had underway at the 
time was, as we completed some rather sophisticated models that 
have been developed in the last 3 to 5 years, we were going to 
remodel the Standard Project Hurricane to see exactly what 
level of protection was afforded by these existing levees. 
Unfortunately, we got overtaken by events with Hurricane 
Katrina, and we were not able to complete that program. That is 
even underway now.
    But that is an important factor that we do have to go back 
and re-evaluate, and re-evaluation of projects this size takes 
quite a while and takes quite a bit of money and resources to 
undertake. We do not undertake those things lackadaisically. We 
take those things very seriously. We have to involve our local 
sponsors and the State as well as various other Federal 
agencies in the environmental consequences of these projects. 
So certainly re-evaluation is called for to look at all these 
ecological and geographic changes that have occurred over the 
last 40 years and the last 20 years or so since the project was 
re-evaluated the last time.
    Unfortunately, it takes so long to construct these 
projects, they are so massive, that you could re-evaluate one 
of these projects several times before it is totally completed.
    Senator Carper. My time has expired. If I could, Madam 
Chairman, let me just ask if either of the witnesses from the 
Army Corps want to add to that or take away, just briefly.
    Colonel Wagenaar. The only thing I would add, Senator, is 
that regarding the Mississippi River Gulf Outlet, it is a 
federally authorized navigation canal, a channel. There is a 
lot of passion and feelings behind what happened with the River 
Gulf Outlet in regards to the hurricane. I believe, though, 
that modeling and science has to show what actually happened 
with Katrina and how the storm surge overtook the hurricane 
protection levees along the Mississippi River Gulf Outlet.
    I believe it is too simple to state that the Mississippi 
River Gulf Outlet was the cause of all of this destruction. I 
believe the models and the science has to prove that out.
    Senator Carper. All right. Gentlemen, thanks very much.
    Madam Chairman, I am supposed to be in Senator Frist's 
office right now for a meeting. I am going to slip out, so 
thanks for letting me sit in here with you today, and see you 
both later on the floor.
    Chairman Collins. Thank you.
    Senator Carper. Again, to our witnesses, thank you very 
much for joining us today.
    Chairman Collins. Senator Voinovich.
    Senator Voinovich. According to the information that I 
mentioned earlier, the Corps noted that several levees had 
settled and needed to be raised to provide the design level of 
protection. Mr. Colletti, are you familiar with the levees that 
settled and needed to be raised to provide the design level of 
protection?
    Mr. Colletti. Well, the levee protection and construction 
and reconstruction is generally handled through Mr. Naomi's 
project management group. So throughout the years, there are 
pieces of levees that do settle.
    Senator Voinovich. The question I have for whoever wants to 
answer it is: Given that several levees had settled and needed 
to be raised to provide the design level of protection, had the 
appropriate repairs been made, would that have made a 
difference in terms of whether or not the city would have 
flooded?
    Mr. Naomi. Senator, I think it would be highly unlikely 
that raising the levees to the degree that we were going to 
raise them would have prevented the significant flooding that 
was experienced due to Katrina. We had no plans to do anything 
with the floodwalls on the outfall canals. There were some 
levees in Eastern New Orleans and in St. Bernard Parish that 
needed to be raised, but the surge that was encountered at 
those locations----
    Senator Voinovich. So what you are saying is it would not 
have made a difference.
    Mr. Naomi. No, sir, it would not have.
    Senator Voinovich. Madam Chairman, one of the things that I 
am still puzzled about is whether Katrina was a Category 5 or a 
Category 3 storm. I understand that the National Science 
Foundation and the American Society of Civil Engineers both 
concluded that this was actually a Category 3 and that had the 
levees been maintained properly this might not have happened.
    Chairman Collins. That is correct.
    Senator Voinovich. So I think that there is a significant 
difference of opinion regarding the strength of the storm. You 
all think this was a Category 4 or 5, and others think it is 
was a Category 3. Is that right?
    Colonel Wagenaar. Senator, as an example, what we base it 
on, there were many areas of the Mississippi River Gulf Outlet 
levee that were 17.5 feet, at the authorized elevation. That 
levee system was completely destroyed by this storm. Completely 
overtopped, completely removed. And it was at its authorized 
height.
    Senator Voinovich. OK. So you believe it was more than a 
Category 3.
    Colonel Wagenaar. Yes, sir.
    Senator Voinovich. OK. Madam Chairman, do we know yet what 
the plan for rebuilding is? Has that decision been made as to 
whether the levees will be built to withstand a Category 3 or a 
Category 5 storm?
    Chairman Collins. It is my understanding that the decision 
has not been made. I would defer to the colonel.
    Colonel Wagenaar. Senator, we are using emergency monies 
right now to re-establish the pre-Katrina levee system to its 
authorized height, which is Category 3 in most areas, and no 
decision has been made on future heights of that levee system.
    Senator Voinovich. I will ask you the same question I have 
asked other members of the Corps of Engineers. In preparation 
for upcoming storms, would you do anything differently? With 
the work that you are doing right now to fix what has 
deteriorated or been destroyed, would you make changes to your 
efforts based on whether you were preparing for a Category 3 or 
a Category 5 storm?
    Colonel Wagenaar. Senator, I guess the easy answer would be 
that if we want to offer a level of protection greater than 
what was there before, then we need to look at this system 
comprehensively. It is not as simple as building a levee 50 or 
60 or 70 feet high. It also includes water evacuation from the 
city. It includes coastal restoration. We have to look at the 
system comprehensively. I am not sure that has been done in the 
past. But to offer a level of protection greater than what was 
there before really is going to take a comprehensive approach.
    Senator Voinovich. Well, I think somebody ought to get on 
with the question. The decision as to what you do there will 
impact how the town is going to be developed. Major decisions 
are going to have to be made on the basis of that.
    Supplementing Mr. Huey's description of the annual levee 
inspection, Mr. Hearn said that, ``The inspection starts at 9 
a.m. and ends at 12:30 p.m. and covers close to 100 miles of 
levees. Mr. Hearn also said that even though professional 
engineers work for the OLD, they perform nothing more than a 
visual inspection of the levees.'' Is that true? Is that a 
visual inspection?
    Mr. Hearn. That is correct.
    Senator Voinovich. OK. I would like to hear from the 
colonel or from the Army Corps of Engineers. Do you think that 
the current way that these are being inspected is adequate? And 
does the Orleans Levee District need to become a lot more 
sophisticated in what they are doing?
    Mr. Colletti. Well, all of our inspections have been 
visual, with the exception of when we have a known problem. 
When you have in that case over 100 miles of levees, we have a 
program along the Mississippi River called levee monitoring, 
and you occasionally go through reaches and you do some 
subsurface testing along the bank lines and such. It is quite 
expensive to do that.
    After the fact here in this case, but we have considered 
possibly instituting some type of hurricane protection 
monitoring program which would maybe randomly take samples at 
certain areas.
    Senator Voinovich. OK, here is the deal: You had the 
hurricane. We have operation and maintenance. And according to 
what I read, Madam Chairman, once something is turned over to 
the Orleans Levee District--I have got some previous testimony 
that says that they were not sure whether or not it had been 
turned over to them or not. But the fact is--let's get back to 
the original question. Now that we have been through this, 
would you suggest as a professional that in terms of the 
maintenance and monitoring better equipment should be used in 
order to get the job done at this stage of the game?
    Mr. Colletti. There are better techniques that possibly 
could be utilized, and I think it is going to be possibly a 
combination of OLD as well as the Corps of Engineers. But 
initially----
    Senator Voinovich. Having survived this disaster, who do 
you think should be responsible for making sure that the levees 
are being sufficiently maintained?
    Mr. Colletti. Operation and maintenance, as it has been, is 
the responsibility of the Orleans Levee District. To go beyond 
where we are at and do structural re-evaluation I believe is 
going to take more than the capabilities of the Orleans Levee 
District. I cannot say for sure what would that be, but it is 
much more extensive when you do structural re-evaluations.
    Senator Voinovich. You indicated to me that, as far as you 
were concerned, they were doing a good job in terms of 
operation and maintenance. Is that what you said?
    Mr. Colletti. That is correct.
    Senator Voinovich. According to, again, staff, ``Mr. Hearn 
indicated that at least on one example they failed in its 
operation and maintenance. Last year a train damaged a railroad 
floodgate in the East Orleans area. Mr. Hearn agreed that the 
OLD's duty to repair the floodgate''--and this may not have 
anything to do with the problem, but were you aware of that?
    Mr. Colletti. Yes. As I said, there are over 100 miles of 
levees and floodwalls and such, and you are going to have 
pieces of that----
    Senator Voinovich. Would you say that they could have done 
a better job? And did you let them know that?
    Mr. Colletti. In their defense, in that particular 
instance, they did provide sandbagging of that area. They did 
take an action, and they did show that responsibility. It just 
so happened that it was overtopped at that location.
    Senator Voinovich. Mr. Preau, what are your 
responsibilities here? I understand that you were responsible 
for looking at the emergency plans. According to Mr. Hearn's 
testimony, ``DOTD has been slack in performing its duties. 
Although DOTD is supposed to review the levee district's 
emergency operation plan, Mr. Hearn has never received comments 
or any indication of approval or disapproval.'' What do you say 
to that?
    Mr. Preau. We do review the emergency operations plans of 
all of the levee districts. If there are no comments to send 
back, we don't send any comments back.
    Senator Voinovich. Do you ever tell them the plans are 
approved? Or, if they don't hear from you, the plans are OK?
    Mr. Preau. There is nothing in there that says we have to 
approve it, to my knowledge. It says we review them. All of 
these operations plans, emergency operations plans, were set up 
on a template, set up by, I believe, Homeland Security for each 
levee district. They are put on a template. In my time here, 
they were put together originally back--what was it, Max? About 
1985, I think?
    Mr. Hearn. Yes.
    Mr. Preau. Somewhere around 1985. I have not been involved 
in reviewing them that long. So all I look at is the updates. 
Every 2 years they are supposed to update them. We look to see 
that they have the correct names and phone numbers in it. There 
is nothing to change on the plan. If there was, it would have 
been given to us by Homeland Security.
    Senator Voinovich. I have run out of time, but, Madam 
Chairman, if I could just ask one for the record.
    Chairman Collins. Sure.
    Senator Voinovich. This is to you, Colonel. Do you have a 
record of the turnover of completed projects to the local 
project sponsors and the New Orleans District? Is there 
paperwork on that?
    Colonel Wagenaar. Senator, I would have to ask Mr. Colletti 
to respond.
    Mr. Colletti. We have provided various pieces of paperwork 
on pieces of the system. I don't know how many. I think Senator 
Collins had mentioned 22 or something to that effect. There 
were various pieces that we have turned over to them.
    Senator Voinovich. Do you have documentation to accompany 
each of those turnovers? In other words, do they know that it 
was turned over to them?
    Mr. Colletti. The letters pretty much explain that. 
Basically they state that the project is--the contracts are 
completed and it is now their responsibility for operation and 
maintenance.
    Senator Voinovich. I would like to see the paperwork during 
the last several years. Because according to what Mr. Hearn 
said to the staff people, ``This is partly explained by Mr. 
Hearn understanding that no part of the LP&V HPP has been 
officially turned over to the levee district even though the 
levee district assumes maintenance responsibilities once the 
contractor finished the work on the section.'' I would like to 
know whether or not they know it has been turned over to them 
and they have responsibilities.
    Mr. Colletti. Yes, when we send those letters--some of 
those are actually sent by certified letter. So there is a 
documentation there with those.
    Senator Voinovich. Thank you.
    Chairman Collins. Thank you, Senator. Senator Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Madam Chairman, thank you. And I apologize 
for coming so late. I am going to try to ask questions which I 
believe have not either been addressed or have not been 
addressed clearly as far as we can tell.
    The first is, who had the responsibility. Let's look 
backwards first as to who had the responsibility for operation, 
maintenance, repair, replacement, and rehab for the 17th Street 
Canal floodwall. OK, we will start with you, Colonel. Who had 
the responsibility for the operation, maintenance, repair, 
replacement, and rehab of the 17th Street Canal floodwall?
    Colonel Wagenaar. Senator, in regards to the operations and 
maintenance, it is my understanding that the Orleans Levee 
District was responsible. In regards to repair, rehab, or 
future construction, it would be a partnership between 
ourselves, the State DOTD as the cost-share sponsor, and the 
levee district as the local sponsor to do that work.
    Senator Levin. And that would depend on the size or scope 
of the repair necessary? What would it depend on?
    Colonel Wagenaar. It would depend on the activity, Senator.
    Senator Levin. And is that clearly divided as to who would 
have what responsibility for repair, who would have what 
responsibility for replacement, and who would have what 
responsibility for rehab? Is that a clear division line between 
State, Federal, and local?
    Colonel Wagenaar. I believe it is pretty clear. Mr. 
Colletti may be able to add light to it, but I believe it is 
clear, Senator.
    Senator Levin. And was it clear at the time?
    Colonel Wagenaar. Yes, sir.
    Senator Levin. OK.
    Mr. Colletti. On the Federal projects, if the project is 
damaged by a flood or coastal storm or hurricane, it is 
repaired under Public Law 99 through the Corps of Engineers. If 
it is damaged by--such as the railroad gate, if it is damaged 
by a train accident, then it is the responsibility of the levee 
district.
    Senator Levin. And where does the State come in? I think 
the colonel said the State also has a role.
    Colonel Wagenaar. They have oversight, yes, Senator.
    Senator Levin. Oversight, but in terms of responsibility to 
carry out and to fund the repair, replacement, and rehab, is 
there any State funding in that?
    Mr. Preau. No, sir, there is not. The State, unless it is 
the non-Federal sponsor, would not have any authority in that.
    Senator Levin. Now, in terms of operation and maintenance, 
the colonel said that is up to the district?
    Colonel Wagenaar. The levee district, yes, sir.
    Senator Levin. The levee district. Do you all agree that 
the levee district at the time of these events was responsible 
for the operation and maintenance of the 17th Street Canal 
floodwall? Do you all agree with that?
    Mr. Naomi. Yes, I agree with that.
    Mr. Preau. Yes.
    Mr. Huey. Yes.
    Senator Levin. OK. Now, in terms of the question of whether 
or not a project is completed or not, was this project 
considered at the time a completed project?
    Mr. Naomi. The project itself, overall project, was not 
completed. Individual parts of it were, but construction--it 
was still in the construction general program of the Corps of 
Engineers and, as such, was a project that was deemed under 
construction.
    Senator Levin. And did that have any impact as to who was 
responsible for operation, maintenance, and repair, the fact 
that it was not in the view of the Corps of Engineers a 
completed project?
    Mr. Naomi. Well, the pieces of the projects that were 
turned over were in operation and maintenance, and the only 
time we get involved actually from the construction standpoint 
is when we have to go out and build something. Generally, when 
the project pieces are finished, we turn them over to the 
sponsor for maintenance.
    Senator Levin. All right. But the fact that the overall 
project was not completed did not then have any effect as to 
who was responsible for the operation and maintenance of that 
part of the project.
    Mr. Naomi. I don't think so, sir.
    Senator Levin. OK.
    Mr. Huey. Could I step in because it also clarifies a 
question asked by Senator Voinovich earlier with the turning 
over of projects. Mr. Hearn and I, in discussions, in talking 
with Chief Engineer Steve Spencer, I want to clarify the fact 
that when Mr. Hearn made the statement that he has never seen 
anything--or he hasn't seen anything to turn over a project, 
that is one of the reasons. We have received, according to 
Chief Engineer Steve Spencer, from the Corps of Engineers 
letters turning over the various flood-proof bridges, for 
example, as they are completed and so forth. The levee systems 
and other things have been dealt with prior to his time, so 
they had already been turned over. Projects such as the 17th 
Street Canal, which is an ongoing project, which was a flood-
proof bridge in the process of being completed, and things of 
that nature, they will say, hey, look, you need to cut the 
grass, maintain it, take a look at it, because the project is 
substantially completed, but they don't officially turn it over 
because it doesn't fit into the project criteria.
    Senator Levin. Well, was the 17th Street Canal part of this 
overall project? Had it been turned over to the district?
    Mr. Huey. Not officially, but it was clearly understood 
that we maintain and cut the grass and look out for the--all of 
our normal day-to-day activities and looking for things and so 
forth. And unless I am wrong, Mr. Hearn, we had been taking 
care of that particular section from the bridge on down that 
was completed while the bridge was being completed.
    Senator Levin. So that the operation and maintenance of 
that section was your responsibility regardless of the fact 
that it had not been officially turned over to you?
    Mr. Huey. Correct. I mean, that is the kind of working 
relationship we work with the Corps on a day-to-day basis. I 
think our people communicate on a day-to-day basis on things of 
this nature, and the reason I stepped in there, to make sure it 
is clarified with the fact that Al Naomi attends virtually 
every meeting. We talk about this. The commissioners are aware 
of what is going on, and the staff works on a day-to-day basis. 
And I know from pretty well the time I have been on the board 
that the levee district had taken over maintaining it because 
the Corps doesn't do some of the maintenance services we do. 
They don't go out with tractors and cut grass.
    Senator Levin. My major question, though, is the fact that 
it had not been formally turned over did not affect the 
question of whose responsibility it was for the operation and 
maintenance of that portion.
    Mr. Huey. Not in my mind.
    Senator Levin. Not, apparently, in anybody's mind.
    Mr. Huey. If the Corps asks us to do something, we do it. 
That is the way I look at it.
    Senator Levin. Do you all agree with that, that the fact 
that this portion of the overall project had not been formally 
turned over by the Corps did not affect the responsibility 
question for operation and maintenance? Would you all agree 
with that?
    Colonel Wagenaar. Senator, I am not sure that we did not 
formally turn it over. I would have to look at the 
documentation.
    Senator Levin. But if you had not formally turned it over, 
officially turned it over, would that have had any effect on 
who was responsible for operation and maintenance of that part 
of the project?
    Colonel Wagenaar. No, sir, and the actions of the levee 
district clearly indicate that they had responsibility for 
those canals.
    Senator Levin. OK. And now the interim turnover question, 
where does that fit?
    Mr. Colletti. That essentially is basically a notification 
that the contract is complete. When we go to do a construction 
contract, we get a right of entry for certain limits of the 
project, and the interim turnover per se is to notify them that 
we are finished in that area and that they will go ahead and 
maintain it. We do not ask them to maintain while we are doing 
construction within the area.
    Senator Levin. Does that have any effect as to whether or 
not interim control status had been achieved or adopted or 
stated? Does that have any effect on who is responsible to do 
the operation and maintenance?
    Mr. Colletti. No, sir, other than, like I said, in that 
construction limits, when it is finished, we look at the levee 
district to do that.
    Senator Levin. And then once it is finished, in terms of 
reconstruction, rehabilitation, repair, that depends on very 
clear and set ground rules which you all agree are clear and 
well defined? Is that fair? No, Mr. Preau? Am I pronouncing 
your name correctly?
    Mr. Preau. Yes, sir.
    Senator Levin. You are shaking your head no.
    Mr. Preau. I am shaking my head no about the whole issue of 
turning over piecemeal pieces of these projects. When a project 
takes 40 years to develop and they start turning loose pieces a 
little bit at a time, you do not have a completed project. It 
is supposed to be useful elements. I do not think we even have 
useful elements. It looks like it is just turned over as the 
construction contract ends. It is handed to the levee district, 
and they are told to go maintain it.
    Senator Levin. What is the relevance?
    Mr. Preau. The relevance comes down to who is responsible 
for the repair.
    Senator Levin. For the repair issue, OK. So there is a 
question here because it was a piece turned over, and not a 
finished piece turned over, as to who is responsible for the 
repair and rehab of that--or of any project? Is that what you 
are saying?
    Mr. Preau. That is what I am saying, and it is not just for 
that project. That is for all of these Corps projects. They are 
long-term, multi-year projects, and they are done in pieces.
    Senator Levin. And that the rule for who is responsible for 
repair of those projects is not clear when these are turned 
over, in effect, in pieces rather than as larger pieces. Is 
that what you are saying?
    Mr. Preau. That is what I am saying, and I think that needs 
clarification. It needs it on all of the Corps agreements. It 
says ``a useful element.''
    Senator Levin. Thank you. Thank you, Madam Chairman.
    Chairman Collins. Thank you, Senator Levin.
    The issue you raised is one that we have spent a great deal 
of time on today, and I really think it is the key issue. Who 
is in charge? Who is responsible when there is a problem? Who 
responds when there is a breach? And having listened to the 
testimony today, having read the staff interviews, I believe it 
is still unclear, and it is imperative that we clearly define 
the lines of responsibility and authority.
    I would like to pose two brief hypotheticals to try to get 
at this issue a little further. The first is that water is 
found to be seeping up from the ground near the Mississippi 
River levee, so for that hypothetical, who is responsible for 
responding? Colonel?
    Colonel Wagenaar. Depending on who that initial seepage was 
reported to, near the Mississippi River levee, it could 
multiple different factors. But, for example, if the Sewer and 
Water Board went to investigate it for a potential water main 
leak or something to that effect, they would report that to the 
levee district and to the Corps. That is the process that 
should occur. If it is in the vicinity of the Federal levees on 
the Mississippi River, ultimately that is a Corps 
responsibility to analyze and look at that issue and 
potentially effect repair.
    Chairman Collins. Mr. Preau, what is your answer to that 
question?
    Mr. Preau. I think I would have to agree with that one.
    Chairman Collins. Mr. Hearn.
    Mr. Hearn. I agree with that. Normally it would be reported 
to either the Sewer and Water Board or to us. When we go out, 
we find out whether or not it is river water or whether or not 
it is a leaking water pipe. We would call Sewer and Water Board 
if it was a leaky water pipe. We would call the Corps of 
Engineers and start working on the sand boil if it was 
Mississippi River water.
    Chairman Collins. There, again, it depends on who got the 
report, how big is the problem, what is the cause of the 
problem. The answer varies.
    Second example: Let's say that an earthquake hits New 
Orleans, and as a result, a portion of the levee system 
experiences considerable subsidence. In that hypothetical, Mr. 
Hearn, who is responsible for responding?
    Mr. Hearn. I think if it is an earthquake that caused that 
subsidence, we would have to come to the Corps of Engineers--it 
would depend upon the amount of subsidence you are talking 
about. If it was small subsidence, then we could take care of 
it in-house coordinating with the Corps. Then we would fund it, 
have it repaired. If it is larger than that, we would go to the 
Corps and ask for assistance on the repair.
    Chairman Collins. Mr. Preau.
    Mr. Preau. I would say that if it was an act of God type of 
occurrence, then it would be the Corps that would be 
responsible under P.L. 84-99.
    Chairman Collins. Colonel.
    Colonel Wagenaar. I believe that if it is an immediate 
action, then the levee district has to respond to it. And then 
if it exceeds their capacity, they request through the State to 
the Corps for assistance or directly. They can come directly to 
us. But if it exceeds their capability, then the Corps comes 
in.
    Chairman Collins. Again, the answers are a little 
different, and once again, really what you are telling me is it 
depends, and I think that is a problem. I think we need to have 
a clear delineation of who does what, and I don't know whether 
that requires legislation or regulation or revisions of State 
law or Federal law. But that seems to me to be a problem that 
we saw in real life, not in a hypothetical, when Colonel 
Wagenaar discussed the turf war that broke out on the 17th 
Street Canal breach. And that is what we have to straighten 
out.
    Mr. Huey, first of all, I want to thank you for being very 
candid in your staff interview. I really appreciated that 
because it is important that we understand exactly what 
happened. You made a comment about the qualifications of the 
people who serve on the levee board, and you talked about 
people coming from special interest groups. ``I have got 
commissioners, like I said before, who are only concerned about 
DBE''--is that disadvantaged business enterprises?
    Mr. Huey. Correct.
    Chairman Collins. ``. . . who get the contracts in 
developing New Orleans East. I've got them who are only 
concerned about particular issues, and the least on their mind 
appears to be flood control because they think that is all done 
by the Corps. As we have said here, they are there for whatever 
political agendas or personal agendas that they have, number 
one.''
    So I want to ask you two questions. First, I want to go 
back to the issue of whether the board should be involved in 
business enterprises or whether it would be clearer to those 
who are appointed to the Board what their duty is and what 
their obligation is if the Board only dealt with the levees. So 
let me ask you that question first.
    Mr. Huey. Yes, I think it would be clearer, and if I could 
just comment quickly on that, the previous board--which I will 
just make a statement here and so forth. It was one of the 
finest and most talented boards in my tenure that I could ever 
know. It was made up with--it was the first time I have been on 
a board ever that we had a retired Corps of Engineers 
individual, Vic Landry, who was vice president, who was able to 
assure and work with all the levee district systems and work 
with the Corps, and that we were focused in the right direction 
on flood protection. We had a Congressional Medal of Honor-
winning general, General Livingston, who lent a lot to the 
board. We had some substantial folks who identified some of 
these complexities, and that is why some of the maneuvers had 
looked to say how can we divest ourselves from some of the 
commercial activities, and we went into the privatization of 
the lakefront airport, for example. We were looking into the 
formulation of--the board functioned similar to what they do at 
the rate commission in New Orleans where you have a private-
public type partnership, where you can work or have an entity 
that focuses on your private-public--commercial development of 
the area and generating of revenues, and the board primarily 
focused on the flood protection and get the benefits of all.
    Where we can continue to utilize the resources we have in 
people who maintain and do the things with the--for the levee 
system, our police department, for example, and things of that 
nature where we could utilize them more efficiently. They are 
like the Marine Corps, I used to say. You have them. You need 
them if a storm comes. You want to make sure that your property 
is secure and things of that nature. You hope you never need 
them in the event of that, but they are there. And if they are 
there, get some use out of them. Those type of things.
    So I think the board was moving in a direction to try to 
clarify that issue because it was somewhat complicated, and so 
to answer your question, yes, I do think that some seriousness 
needs to be looked into it, but it needs to be done in the 
right way, understanding that I had mentioned to you before 
that the levee district's funding, 50 percent is self-
generating. So I hope in the wisdom of what they do in our 
local community is addressed with the fact that where will that 
money go.
    Chairman Collins. Should there be qualifications to serve 
on the board? For example, should there be a requirement that 
someone has engineering experience or business management 
experience? As I understand it, the only qualification right 
now is you have to be a resident of the State. Should there 
be----
    Mr. Huey. No. Of the district, from what I understand, the 
governor just appointed an appointee and suspended the rules of 
the State because you have to live in the--vote in the parish 
you reside in for 1 year, and I do not believe that individual 
qualifies at this particular point in time. But if not, that 
ought to be the governor's choice. But to answer qualification, 
the past board, when they moved on, just said that they hoped 
in the governor's wisdom, a new governor moving in and so 
forth, that she would select more of the type of business 
people, the type of people in which you are going to look to--
because as we saw it and looked at the board, our staff and the 
way they have worked and so forth for so many years understands 
the flood protection system. They work so closely with the 
Corps of Engineers, and we saw our responsibility to assure 
that we are providing the funding necessary and the resources 
necessary to our folks to continue to grow because as you 
develop this flood protection system we are talking about, you 
are developing a liability--more property to maintain, more 
grass to cut, more responsibilities and floodgates to open and 
close, and so forth. And we were concerned about our ability to 
generate it through a tax base. So that is why the board 
focused a lot on the business activities.
    I am sure that some wiser than me can come up with a way 
that maybe all of this could be brought together for an overall 
good of the community.
    Chairman Collins. Thank you.
    Mr. Hearn, my final question is for you. We have been 
carefully reviewing the minutes of the district board meetings 
as well as the minutes of the various committee meetings of the 
board, and what we have found is, in the months before 
Hurricane Katrina devastated New Orleans, a number of unfunded 
projects were identified, and that included fixing the 
subsidence of a major levee in New Orleans East, repairing two 
pumping stations, floodproofing the Hammond Highway Bridge, and 
repairing bulkheads at the airport and at one of the marinas.
    Now, I understand that some of these projects are the 
responsibility of the Corps, or you could argue that they are 
the responsibility of the Corps. But some are not, and the fact 
is that the levee board was aware of these needed repairs and 
had some $21 million in the bank, $13 million of which was 
specifically allocated to levee-related projects.
    So my question is: Why didn't the board use some of its 
millions of dollars that it had in the bank to make New Orleans 
safer through these repairs which had been identified?
    Mr. Hearn. The pumping station project, for example, there 
are two of them, and they are over $10 to $12 million each, if 
you had put that in frontal protection of the pumping station 
on London Avenue Canal, I don't think that would have made any 
difference in this particular case. But it is a lack of 
funding. If you look at that, the $13 million, and you see the 
debt service associated with the bonds that we had applied for 
to get the money to build all these other projects, we did not 
feel that there was enough money in that pot to construct these 
other projects. The New Orleans East, all we did was go to all 
of our Senators--or our delegation, the Louisiana delegation, 
requesting assistance on the funding from the President's 
budget. There just was not enough money there to do that.
    Chairman Collins. Mr. Huey.
    Mr. Huey. If I can answer that, and I thank you, Max, for 
trying to not throw the finger anywhere. The board is 
responsible for where the money is spent. What Max's 
responsibility should have been is to come to the board and 
say, Hey, board, we have these particular projects, and I would 
like to utilize some funding for this.
    The board makes those decisions, and in my entire tenure, 
in order to expend money for flood protection projects, we have 
always dealt with the fact that the Corps of Engineers in that 
are going to put up a certain specific funding, and we have 
always come up with our matching funds. OK? But I want to at 
least say that these folks, the Corps of Engineers, and Al 
Naomi in particular--and I heard it was mentioned here, and I 
don't know what the higher-ups in the Corps of Engineers or who 
presents things to the Senate and so forth, but this man should 
have presented the case to us, and he should have said how bad 
money was needed, and we let loose on that $1 million because 
we had never heard of the Federal Government shutting a project 
down during the construction and hurricane season coming up. 
And if you check the minutes, you will see how we have done 
that. I have packets of letters we wrote our Senators and so 
forth. But from our budget from the levee district, you have a 
very good question from that end of it.
    Let's take, for example, we have been criticized for the 
Mardi Gras Fountain, and here I have got before 1983, when he 
talked about the high-level protection plan changing, is the 
tax referendum where the people--we went to the people. We got 
authorized for taxing, and what projects along Lakeshore Drive 
and things like that that can be utilized as far as flood 
protection? And we spent $2.5 million in redoing the Mardi Gras 
Fountain, which is a historical entity within the city of New 
Orleans. The maintenance was becoming phenomenal. It was very 
old and what have you. But in this project, one thing it taught 
us that I think is going to save us billions of dollars, the 
seawall--and I think the Corps of Engineers and everybody here 
will certainly attest to this. The seawall certainly showed us 
where the breakwater--when the waves hit, they didn't even come 
close to topping some of those waves on a consistent basis and 
how important that seawall is. But we have had a serious 
problem with erosion just on normal storm days that are coming 
back and digging holes behind it, and the concern that it is 
going to collapse into the lake.
    So with it being so costly and our chances of knowing that 
we may not get funded to replace it because it would be in the 
billions, we have come up with some methods, and one of those 
things in conjunction with the Mardi Gras Fountain was to 
utilize that, build that fountain, sheet pile was driven 
between the seawall and the earth, and we built a promenade. So 
now you have something that--and it held up tremendously during 
Katrina. The board had passed a resolution to continue if, in 
fact, this proved to be an economical fix, to do so much of 
that each year until we can cover the lakefront.
    So those are the kind of things that I think the board 
looked and how it can maximize utilization of its funds in both 
recreational--because, again, we are mandated by the 
legislature to maintain 35 percent green space. We have swing 
sets up there we have been sued for, and we have had problems 
over there, and we are not a recreational department, but they 
asked us--we want to do something for the people. There are 
levees on top. Even the Federal Government has authorized the 
fact they want to see the levees for walking and bike paths. 
And we work through those programs, too.
    So, yes, we do have other responsibilities. I am sure the 
intent is very good and want the people to enjoy, especially 
when we are landlocked and have as much recreational area, and 
they are trying to use the levee systems and the flood 
protection system as part of that.
    Chairman Collins. The point that I want to make is there is 
no doubt that the Army Corps has been underfunded, and 
underfunded for years, as Senator Voinovich pointed out. But 
when the local levee board has more than $20 million on hand, 
you would expect that some of that money is being spent to 
improve the inspection process and to improve the maintenance. 
So that is hard to understand. It is hard to understand that 
kind of balance not being used for some of these safety-related 
repairs or to improve your ability to detect problems.
    Mr. Huey. Yes. Well, first of all, that is a wonderful 
question. I am glad you gave me a follow-up on that because I 
do want to make a point.
    Recall the fact that I was the first president in the 
history of the levee district to take over a $6 million 
deficit. I have been the president for 9 years. We were digging 
out of a hole, and a surplus had started to just develop, and 
it is somewhat of the $21 million, it is lower than that due to 
the fact that the way our taxes and our ad valorem taxes are--
it drops. So you have to have the cushion money. It will drop 
during a collection period. You never really know how much you 
are going to collect, for example. So at that particular point 
in time, when the financials were done at $21 million, I am 
certainly proud to say that, hey, I was able to make a $27 
million difference in the financial condition of the levee 
district.
    Now, that is why I wanted to explain the Mardi Gras 
Fountain, and there are numerous other cases in which that is 
done and that the levee district has worked on that, but how do 
you expend money on something that the Corps of Engineers, who 
we look at as the experts in this area and that we work with 
and we pride ourselves on working with them, they are expert--
you look, you see boils, you see breaches, you do this, the 
various things. They go to workshops, they work together and 
try and identify what is an inspection method. I think the 
question that arises in my mind: Is there any other better way 
to inspect them? Everybody I have talked to so far said no. You 
mentioned an individual, and it sounds like, hey, maybe that is 
something we need to look into. But I am a little discouraged 
because the last specialist that told the city of New Orleans 
that these folks did not build this thing to specification, 
found out it is built to specifications, he was supposed to be 
an expert, too.
    So I think we need to investigate why his equipment said 
that it was only 9 feet deep, and they had to go dig down there 
and pull it up and find out it was built to--so we are hearing 
all of these things, and it is important to us to get to what 
are the real issues here. And if that is a real issue in flood 
protection, I will assure you, the city of New Orleans, the 
State of Louisiana, we understand flood problems, and we will 
allocate, and they have never failed to come up with our 
matching funds. If we could better utilize the budget--it is a 
levee district. It was asked to me by your investigative staff 
how can we use--they are some pretty good people. They know how 
to get stuff out of you. If we can have a general fund, can we 
use it for whatever? Yes, we can. The general fund is flexible. 
And had we known these problems and that our funds could better 
be utilized, I think the board would have moved to do that.
    Chairman Collins. Thank you.
    I want to thank all of our witnesses for testifying today. 
You really have added to our understanding. I am convinced that 
we need to sort out the lines of authority much more clearly as 
we proceed to rebuild the levees stronger and better than ever. 
Before I adjourn the hearing, I would like to take a moment to 
read a few excerpts from an Army Corps of Engineers document.
    ``The hurricane inundated over 5,000 square miles in 
Louisiana, including highly populated urban areas in Orleans 
and St. Bernard Parishes. Fortunately, advance warning by the 
U.S. Weather Bureau enabled hundreds of thousands of residents 
to flee their homes before the storm struck. Many others, 
however, were not so fortunate. Rapidly rising water trapped 
them in their homes, on roofs, on tops of cars, in trees, and 
anything else that stood above the water. Extensive flooding 
was caused by overtopping and breaching of existing protection 
levees. In her trip through Louisiana, the hurricane left 81 
dead, over 17,600 injured, and caused the evacuation of 250,000 
persons to storm shelters.''
    Well, perhaps from the statistics on the number of people 
who lost their lives, it became evident to you that I am not 
reading from a document related to Hurricane Katrina. It is 
instead taken from the Army Corps' after-action report for 
Hurricane Betsy, and it was drafted in September of 1965.
    This is troubling to me, and when you read this report and 
you look at the pictures, one immediately notices that many of 
the same neighborhoods that were devastated by Katrina were 
also damaged and flooded by Hurricane Betsy. The similarities 
are striking.
    Furthermore, Hurricane Betsy led to the initiation of new 
flood control projects, some of which failed the city of New 
Orleans during Hurricane Katrina. And I mention this because, 
as I said earlier, the future of New Orleans is tied to its 
levee system. If people and businesses cannot be assured that 
the levees are strong, that there is effective and efficient 
oversight of the levees, then we cannot assure them that we are 
protecting New Orleans from a future catastrophic failure. And 
I feel we simply all have an obligation in this regard. The 
stakes are just too high. And that is why it is important that 
we do identify what went wrong and make it right.
    We owe that to the people who have lost their lives, their 
properties, their jobs. We owe it to the city of New Orleans. 
We owe it to the State of Louisiana. And I appreciate your help 
this morning in giving us a better understanding of what went 
wrong and how we can do better in the future.
    Thank you for your cooperation. This hearing record will 
remain open for 15 days for additional questions and materials.
    This hearing is now adjourned. Thank you.
    [Whereupon, at 12:43 p.m., the Committee was adjourned.]



                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
